<html>
<title> - [H.A.S.C. No. 116-10]NATIONAL SECURITY CHALLENGES AND U.S. MILITARY ACTIVITIES IN THE GREATER MIDDLE EAST AND AFRICA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                         [H.A.S.C. No. 116-10]

                    NATIONAL SECURITY CHALLENGES AND

     U.S. MILITARY ACTIVITIES IN THE GREATER MIDDLE EAST AND AFRICA

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                              HEARING HELD

                             MARCH 7, 2019

                                     
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  
                  
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
36-296                     WASHINGTON : 2019 

                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Sixteenth Congress

                    ADAM SMITH, Washington, Chairman

SUSAN A. DAVIS, California           WILLIAM M. ``MAC'' THORNBERRY, 
JAMES R. LANGEVIN, Rhode Island          Texas
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                ROB BISHOP, Utah
JOE COURTNEY, Connecticut            MICHAEL R. TURNER, Ohio
JOHN GARAMENDI, California           MIKE ROGERS, Alabama
JACKIE SPEIER, California            K. MICHAEL CONAWAY, Texas
TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
DONALD NORCROSS, New Jersey          ROBERT J. WITTMAN, Virginia
RUBEN GALLEGO, Arizona               VICKY HARTZLER, Missouri
SETH MOULTON, Massachusetts          AUSTIN SCOTT, Georgia
SALUD O. CARBAJAL, California        MO BROOKS, Alabama
ANTHONY G. BROWN, Maryland, Vice     PAUL COOK, California
    Chair                            BRADLEY BYRNE, Alabama
RO KHANNA, California                SAM GRAVES, Missouri
WILLIAM R. KEATING, Massachusetts    ELISE M. STEFANIK, New York
FILEMON VELA, Texas                  SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 RALPH LEE ABRAHAM, Louisiana
KENDRA S. HORN, Oklahoma             TRENT KELLY, Mississippi
GILBERT RAY CISNEROS, Jr.,           MIKE GALLAGHER, Wisconsin
    California                       MATT GAETZ, Florida
CHRISSY HOULAHAN, Pennsylvania       DON BACON, Nebraska
JASON CROW, Colorado                 JIM BANKS, Indiana
XOCHITL TORRES SMALL, New Mexico     LIZ CHENEY, Wyoming
ELISSA SLOTKIN, Michigan             PAUL MITCHELL, Michigan
MIKIE SHERRILL, New Jersey           JACK BERGMAN, Michigan
KATIE HILL, California               MICHAEL WALTZ, Florida
VERONICA ESCOBAR, Texas
DEBRA A. HAALAND, New Mexico
JARED F. GOLDEN, Maine
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia

                     Paul Arcangeli, Staff Director
               Will T. Johnson, Professional Staff Member
               Mark Morehouse, Professional Staff Member
                          Justin Lynch, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Committee on Armed Services....................................     1
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Ranking Member, Committee on Armed Services....................     3

                               WITNESSES

Votel, GEN Joseph L., USA, Commander, U.S. Central Command.......     6
Waldhauser, Gen Thomas D., USMC, Commander, U.S. Africa Command..     9
Wheelbarger, Kathryn, Acting Assistant Secretary of Defense for 
  International Security Affairs, Department of Defense..........     3

                                APPENDIX

Prepared Statements:

    Votel, GEN Joseph L..........................................    72
    Waldhauser, Gen Thomas D.....................................   114
    Wheelbarger, Kathryn.........................................    53

Documents Submitted for the Record:

    [The information was not available at the time of printing.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Haaland..................................................   155
    Ms. Houlahan.................................................   155

Questions Submitted by Members Post Hearing:

    Mr. Brown....................................................   161
    Mr. Gallego..................................................   159
    Ms. Haaland..................................................   165
    Mr. Keating..................................................   163
    Mr. Langevin.................................................   159
    Ms. Sherrill.................................................   164
    Ms. Speier...................................................   159
    Mr. Waltz....................................................   165


 
           
                    NATIONAL SECURITY CHALLENGES AND

                    U.S. MILITARY ACTIVITIES IN THE

                     GREATER MIDDLE EAST AND AFRICA

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Thursday, March 7, 2019.
    The committee met, pursuant to call, at 10:01 a.m., in room 
2118, Rayburn House Office Building, Hon. Adam Smith (chairman 
of the committee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
       WASHINGTON, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning. I call the meeting to order.
    Welcome. Before we get started, just one quick 
announcement. I made the announcement yesterday and sent it 
around. We are going to, on the questioning, go in reverse 
order this morning, so least senior and on up.
    So welcome to this hearing. We are having our posture 
hearing this morning focusing on CENTCOM [U.S. Central Command] 
and AFRICOM [U.S. Africa Command], and we are very honored this 
morning to have with us General Thomas Waldhauser, who is the 
Commander of U.S. Africa Command; and General Joseph Votel, who 
is the Commander of U.S. Central Command; as well as Ms. 
Kathryn Wheelbarger, who is the Acting Assistant Secretary of 
Defense for International Security Affairs.
    I want to begin by thanking General Votel and General 
Waldhauser. I know you are very sad that this is your last 
opportunity to testify before Congress and have this hearing, 
but I want to make special note of it and thank you both for 
years of outstanding service to our country. It has been a 
pleasure working with both of you.
    And this morning we are going to hear specifically from you 
about what is going on in your areas of responsibility, and 
they are areas where there is a lot going on in terms of our 
national security concerns.
    Beginning in Africa, we have a presence throughout that 
continent, and there are a number of issues we are concerned 
about. I think it begins with the threat from transnational 
terrorist groups, both in the Horn of Africa and in West Africa 
as well. We look forward to hearing an update on how our 
efforts are going there, both to keep those transnational 
terrorist threats at bay, also how are we working with our 
various partners both in the region and allies in NATO [North 
Atlantic Treaty Organization] to help contain that threat.
    And then the overall issue in that region continues to be 
stability, particularly in Somalia and Libya, and how are we 
doing on building sustainable governments in those places so 
that we can reduce the threat.
    We are also curious, as we have made the transition from 
better than a decade of primarily focusing on the transnational 
terrorist threats to a new era of great power conflict in 
Russia and China. And Russia and China I know are involved 
throughout Africa, also in various places within the CENTCOM 
responsibility, so hearing about what they are up to as well 
will be of concern.
    In CENTCOM, we continue to have a specific focus on Iraq 
and Syria as the caliphate is just about wiped out, but ISIS 
[Islamic State of Iraq and Syria] is still a presence in that 
region, as are other transnational terrorist threats, and 
certainly the same is true in Afghanistan. So getting an update 
on that is our primary concern.
    Now, as a general rule, we want to try to get to the point 
where we do not have to have a military presence in as many 
places in the world as we have. That is my personal objective. 
We would like to rely on partners, reduce the necessity of us 
having troops abroad, but at the same time, we have to make 
sure that we are meeting our national security objectives and 
protecting ourselves from that.
    And the one comment I will make, and I know this is not 
either of your gentlemen's doing, but we need a consistent 
policy that our allies can rely on. I think it is problematic 
when we make dramatic altering decisions in what seems like the 
blink of an eye in a Presidential tweet.
    It is not that I don't think we need to get to the point 
where we reduce our troop presence in Syria and Afghanistan; it 
is just not something we should do in that ad hoc a manner. It 
catches our allies off guard and creates problems.
    I was reading extensively where it has significantly 
damaged our relationship with President Macron in France. He 
was caught completely by surprise by our decision that we were 
going to pull out of Syria.
    Now, the truth is, we are building towards a drawdown in 
Syria. The point was, you know, we wanted to build up to defeat 
ISIS, remove the caliphate, and get to the point where we could 
pass responsibility off to partners in the region.
    And if we had discussions with our allies and announced 
those plans in a rational way, I think that would help maintain 
the strength of our alliances. So we are concerned by the way 
the policy seems to bounce around from day to day.
    The same is true in Afghanistan, as the announcement was 
made a couple months back that we were going to--I believe the 
tweet was completely pull out of Afghanistan. I know that 
hasn't happened and I know there has been updates since then, 
but a more consistent policy, I think, would help us maintain 
our allies and help build the confidence in the United States 
that is necessary to maintain those allies and maintain our 
interests.
    I look forward to testimony from both of you.
    And also, Ms. Wheelbarger, appreciate you being here as 
well. You are not retiring, I am sorry. It is sort of like 
their day in that regard. But we appreciate your work as well. 
We thank you all for being here.
    With that, I will turn it over to the ranking member, Mr. 
Thornberry.

      STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
 REPRESENTATIVE FROM TEXAS, RANKING MEMBER, COMMITTEE ON ARMED 
                            SERVICES

    Mr. Thornberry. Thank you, Mr. Chairman.
    I too want to welcome our witnesses and express my 
appreciation and respect for General Votel and General 
Waldhauser. My understanding is General Votel's change of 
command will be at the end of this month, General Waldhauser's 
sometime this summer.
    I think it is worth just stopping for a second and 
reflecting on the significant progress that has been made 
against certain terrorist networks in recent years. To me, 2014 
doesn't seem that long ago, but ISIS controlled an area the 
size of Great Britain, and today, we are talking about the last 
village and a tremendous change of affairs on the ground.
    Somalia has been a challenge for us when it comes to 
terrorism for a long time, and my sense is that we have made 
tremendous progress there as well. Now, this progress is a 
result of a lot of folks, including some decisions by this 
administration, to untie the hands of our military to be more 
effective. But the two gentlemen before us had been at the 
center of those efforts in various capacities--SOCOM [U.S. 
Special Operations Command], CENTCOM, AFRICOM, commands on the 
ground--and each of them has played a leading role in making 
this progress. And I think it is important to step back and 
reflect.
    Like you, Mr. Chairman, I share the concerns about where we 
go going forward. We made a lot of progress on terrorists, but 
they are not gone. As a matter of fact, in some ways, they have 
spread out and are more difficult to locate. And so we must 
maintain pressure on terrorist networks, and yet because of the 
rise in great power competition, our resources have to be 
spread in a variety of different ways.
    And while we maintain pressure on terrorist networks in 
CENTCOM and AFRICOM, there is great power competition going on 
in both of those regions as well, which we cannot lose sight 
of. Many of us have seen that firsthand as we travel to Africa 
as well as to the Middle East.
    So there is a lot to talk about. I want to, again, just 
return to appreciation for the--not only their service, but the 
successful results of their leadership in these challenges that 
we have faced, and I look forward to the conversations to come.
    The Chairman. Thank you.
    And we will begin with Ms. Wheelbarger.

STATEMENT OF KATHRYN WHEELBARGER, ACTING ASSISTANT SECRETARY OF 
   DEFENSE FOR INTERNATIONAL SECURITY AFFAIRS, DEPARTMENT OF 
                            DEFENSE

    Ms. Wheelbarger. Thank you. Chairman Smith, Ranking Member 
Thornberry, distinguished members of the committee, thank you 
for inviting me to testify on policy matters related to the 
United States Central Command----
    The Chairman. I apologize, but could you pull the 
microphone a little bit closer to your face there.
    Ms. Wheelbarger. Sure. I will try to speak up.
    The Chairman. Thank you.
    Ms. Wheelbarger [continuing]. Alongside commanders General 
Votel and General Waldhauser. I would also like to take this 
opportunity to thank the men and women of the Department of 
Defense, their families, whose dedication--and their families. 
Their dedication, their talent, and sacrifice enable us to 
execute our policies around the world every day.
    You said this may be General Votel's last hearing. This is 
my first, so I wanted to take this opportunity to thank the 
committee for your strong collaboration and bipartisan support 
that you provide the Department of Defense. That is a vital 
contribution this committee makes to our dialogue on defense 
issues nationwide.
    My time as a senior staff member with national security 
committees in both the House and in the Senate instilled in me 
a great respect for the leadership that this committee provides 
and the invaluable contribution you provide--connection you 
provide to the American people.
    Students of military history spend a great deal of 
attention on the relationship between military commanders and 
statesmen or, rather, the proper level of civilian oversight of 
military activity and operations. An equally important 
component of military history is understanding national will, 
and that is the will to see threats clearly, approach them with 
sound policy, and remain committed to the country's defense 
even when the cost seems high.
    In the American system, the U.S. Congress is a fulcrum 
point where thoughtful oversight and sustained national will 
can come together. It is a noble and sometimes difficult 
challenge, and we at the Department appreciate your unique role 
in ensuring our military has the resources, authorities, and 
the legitimacy necessary to deter and defeat any foe.
    It is a great privilege and honor for me to be here today 
with two very devoted commanders to explain our defense policy 
to these regions. Our policy approach is nested in the guidance 
from the 2017 National Security Strategy [NSS] and the 2018 
National Defense Strategy [NDS].
    In support of the NSS goals to protect the American people, 
defend the homeland, and promote prosperity and peace from a 
position of strength, the NDS focuses on three aspects of U.S. 
power: our lethality, our partners and allies, and our 
institutions. It sets long-term competition with other states 
as our top national security priority even while we continue to 
address regional and terrorism threats.
    To compete in today's complex security environment, to 
defend future generations of Americans against near-peer 
competitors, and to manage ongoing threats from North Korea, 
Iran, and terrorist groups, we must make certain adjustments to 
our posture. We must also avoid prioritizing urgent problems at 
the expense of building readiness and capacity for potential 
high-end conflict into the future. We must deter and confront 
adversaries, while avoiding miscalculation or escalation that 
would distract and ultimately undermine our national security 
interests.
    In the Middle East and Africa, our policy objective is to 
increase regional stability and secure and advance U.S. 
interests working by, with, and through a network of 
international partners. By enhancing the capabilities and 
capacity of our partners, we reduce the risk to our homeland 
while increasing the internal security and stability of 
vulnerable states, often playing a supporting role to other 
government agencies and partners in the region.
    Specifically with the Middle East, it remains vitally 
important to our national security interests for four 
fundamental reasons: First, we are involved in active 
operations at the request of and support to our partners in 
countering extremists that threaten the region and the 
homeland; second, the Middle East is the crossroads of global 
competition with Russia and China; third, we face an aggressive 
Iran whose actions destabilize the region; and finally, our 
national security and economy depend on open commerce through 
the Middle East maritime domain and the free flow of natural 
resources. We must remain postured and engaged throughout this 
region.
    To that end, DOD's [Department of Defense's] policy 
objectives are to ensure continued success in our campaign 
against ISIS and al-Qaida and in support of our partners in the 
region, while also preparing to compete with China, Russia, and 
Iran for regional and global influence. We also invest in 
sustainable partnerships to reduce vulnerabilities of weak 
states as part of a whole-of-government effort to address 
instability.
    With our partners, we have ongoing CT [counterterrorism] 
campaigns in Syria, Iraq, and Yemen. We also are investing in 
defense partnerships that continue to allow us to gain far more 
than we invest in Jordan, Lebanon, Egypt, Iraq, and throughout 
the Gulf. Our partners are key to securing our interests in the 
region.
    We understand the importance and trust emplaced upon the 
Department of Defense for the security of every American, and 
our commitment to our national security and prosperity in this 
theater remains strong even as we address a host of other 
current and future threats.
    In Africa, vast, diverse, and dynamic, Africa is a 
continent of opportunities as well as challenges, with a 
possibility of surging in either direction. The Department must 
remain engaged in the region to foster positive trends and 
arrest the negative ones.
    As outlined in the 2018 DOD Strategy for Africa, the 
Department will continue to pursue African-led security 
solutions while maintaining the ability to act unilaterally to 
protect U.S. citizens and interests. As such, DOD supports U.S. 
whole-of-government efforts to address African security 
challenges, leverages international partnerships to support 
U.S. security objectives, maintains strategic access and 
influence, and seeks low-cost, resource-sustainable, and 
innovative security solutions.
    Employing our by, with, and through approach, we use a 
variety of tools, including capacity-building programs, 
security assistance, military equipment sales, education, 
training, and exercises to work closely with African and other 
international partners to achieve our policy goals. Those goals 
are to, first, seek to advance U.S. interests and influence in 
the region and maintain strategic access, which is especially 
important in an era of increasing near-peer competition; 
second, we seek to deny safe haven to terrorists and disrupt 
their ability to direct or support external operations against 
the U.S.; third, we seek to support our Department of State and 
other interagency colleagues by securing U.S. diplomatic posts; 
fourth, we strive to grow current partners and develop new 
relationships; and finally, we seek to enhance African partner 
capability to achieve our shared objectives into the future.
    In conclusion, the Department is well positioned to address 
the range of dynamic issues facing the United States in the 
Middle East and Africa. Our balanced approach helps ensure the 
Department can meet a variety of present and future threats, 
while enhancing the strength and agility of our forces.
    I thank you for the opportunity to share our views today.
    [The prepared statement of Ms. Wheelbarger can be found in 
the Appendix on page 53.]
    The Chairman. Thank you very much.
    General Votel.

STATEMENT OF GEN JOSEPH L. VOTEL, USA, COMMANDER, U.S. CENTRAL 
                            COMMAND

    General Votel. Chairman Smith, Ranking Member Thornberry, 
distinguished members of the committee, good morning, and thank 
you for the opportunity to appear before you today. I am 
honored to testify alongside Acting Assistant Secretary Katie 
Wheelbarger and my friend and fellow Minnesotan, General Tom 
Waldhauser.
    I come before you today on behalf of the men and women 
working tirelessly across the Central Command area of 
responsibility. They are the best, and I am proud to stand 
among them as their commander. All of these great Americans 
have families and communities across our country that support 
their service members from near and far, and we are equally 
proud and appreciative of their service and sacrifice as well.
    CENTCOM remains a dynamic, challenging, dangerous, yet 
hopeful area of responsibility, an area of great contrast and 
contradiction, rich with history, culture, youth, and 
resources, but riven with sectarianism, violence, 
disenfranchisement, and economic disparity. It is an area where 
we retain vital national interests, preventing attacks on our 
homeland, countering malign and destabilizing influence, 
preventing the proliferation of weapons of mass destruction, 
and ensuring freedom of navigation and commerce through 
critical international waterways.
    I would like to use my time this morning to give you a 
quick overview of our key ongoing operations and opportunities. 
In Afghanistan, the President's South Asia strategy is working. 
The efforts of our Special Representative for Afghan 
Reconciliation, Ambassador Zalmay Khalilzad, show there is a 
path to progress, but there is much left to do to achieve our 
end state of reconciliation between the Government of 
Afghanistan and the Taliban.
    Toward this end, our military efforts are focused on 
supporting the Afghan Security Forces and providing Ambassador 
Khalilzad the maximum military pressure and leverage to support 
his diplomatic efforts to establish a framework that will lead 
to an Afghan dialogue, a reduction in violence, and ultimately, 
a negotiated settlement.
    Importantly, we cannot forget that Afghanistan was used as 
a platform to attack our citizens and homeland in 2001, and we 
have to ensure this never happens again. Safeguarding this 
national interest and preventing violent extremist 
organizations like al-Qaida and ISIS in the Khorasan from 
plotting attacks against our country is also a continuing 
effort for our forces, one that we will need to be prepared to 
address as long as violent extremists can operate from this 
region.
    In Iraq and Syria, the unrelenting efforts of the 79-member 
Defeat-ISIS Coalition, the determination and bravery of the 
Iraqi Security Forces and our Syrian Democratic Force partners, 
has largely liberated the so-called physical caliphate of ISIS. 
An area of 34,000 square miles which they once controlled, now 
reduced to less than a single square mile. Reduction of the 
physical caliphate is a monumental military accomplishment, but 
the fight against ISIS and violent extremism is far from over.
    While ISIS has been battered by the Syrian Democratic 
Forces and coalition forces, we should be clear that what we 
are seeing now is not the surrender of ISIS as an organization, 
but a calculated decision to preserve the safety of their 
families and preservation of their capabilities by taking their 
chances in camps for internally displaced persons and going to 
ground in remote areas and waiting for the right time to 
resurge.
    Recent observations by our men and women on the ground 
highlight that the ISIS population being evacuated from the 
remaining vestiges of the caliphate largely remain unrepentant, 
unbroken, and radicalized. We will need to maintain a vigilant 
offensive against this now widely dispersed and disaggregated 
organization that includes leaders, fighters, facilitators, 
resources, and, of course, their toxic ideology.
    And the broader international community will need to 
determine how we deal with the thousands of fighters and family 
members now being held and safeguarded by the Syrian Democratic 
Forces. In my view, this is a serious generational problem that 
if not handled properly will sow the seeds of future violent 
extremism.
    As the Defeat-ISIS campaign in Syria transitions from 
liberating terrain to enabling local security forces and 
addressing the ISIS clandestine insurgency, we will continue 
our deliberate withdrawal of forces and capabilities as 
directed by the President, but also retain a residual force on 
the ground to continue our mission and safeguard our interests. 
These details are being developed now and will emphasize 
campaign continuity and capitalize on the contributions of our 
coalition partners.
    In Yemen, the fragile cease-fire on the port of Hodeidah is 
a promising albeit increasingly challenging to implement step, 
demonstrating some willingness on both sides of the conflict to 
negotiate and end this humanitarian disaster. Towards this 
objective, CENTCOM supports the diplomatic efforts and work of 
the United Nations special envoy to facilitate the peace 
process by providing advice and assistance and serving as an 
interlocutor through our trusted relationships in the region.
    We also remain steadfast in reminding the Saudi-led 
coalition partners of their obligations under the law of armed 
conflict and ensuring that the fight in Yemen does not spread 
across the region, sowing more instability and threatening 
critical infrastructure and U.S. lives and interests.
    In Yemen, we also face a threat from violent extremist 
groups. To address this, we work closely with our indigenous 
partners to disrupt these organizations to ensure they do not 
have the capability or opportunity to attack our country or 
citizens or those of our partners. I assess that our current 
efforts are keeping these organizations in a state that limits 
their ability to conduct external operations. We must continue 
to do this.
    Against the backdrop of these conflicts is the Iranian 
regime. Their efforts are not limited to the support they 
provide to the Houthis in Yemen. They strive to be a regional 
hegemon and use malign influence, qualitatively and 
quantitatively expanded capabilities, and facilitation and 
support to multiple proxies to exert pressure, threaten other 
countries in the region, supplant U.S. and Western influence, 
and threaten access to critical waterways vital to global 
commerce.
    Our military efforts here are focused on supporting a 
broader U.S. Government pressure campaign through deterrence, 
assurance, and competition. Our longstanding military 
relationships with partners across the region are critical to 
this effort. The Iranian regime remains the long-term 
destabilizing factor in this region.
    We do see reasons for optimism across the region. The 
capabilities and resilience of the Afghan special operations 
forces are notable and mark them as a reliable counterterrorism 
partner for the future.
    The emerging relationships in the Central Asian states look 
to provide us opportunities in an area long dominated and 
influenced by Russia and China. An Iraqi Security Force that 
has risen from the ashes of 2014 and now proudly and capably 
protects their country against ISIS resurgence can be a bulwark 
to future extremism.
    Egyptian armed forces have more effectively fought ISIS in 
the Sinai and are now taking active measures to address the 
underlying issues that give life to these violent extremist 
groups and are helping to contain the threat.
    Steadfast partners like Jordan are making the most of the 
support we provide to maintain their singularly unique role of 
moderation in the region.
    A highly innovative and increasingly professional Lebanese 
armed force is emerging as a legitimate protector of their 
nation and a good partner to us.
    And partners across the Gulf join us in countering 
terrorism, providing security in the maritime environment, and 
effectively defending against missile threat.
    And so it goes in the Central Region today and every day, 
great promise and opportunity mixed with contradiction and 
conflict.
    Let me conclude my remarks where I started, with our people 
and their families. They are the best America has to offer, and 
they continually demonstrate commitment and devotion to our 
Nation, our mission, and to each other. They deserve the best 
equipment, the best pay, the best health care, and the best 
housing. Their commitment is surpassed only by the families 
that support them, and they deserve our best as well.
    As I conclude my tour in the next few weeks as the 
Commander of U.S. Central Command, I want to thank all of you, 
members of this committee and your staff, and indeed all of the 
Members of Congress and the staff, for your strong support to 
our men and women in uniform, our Department of Defense 
civilians, and their families.
    I ask for your continued support to provide our service men 
and women everything they need to accomplish their missions and 
lead healthy, fulfilling lives in continuing service to our 
Nation. Thank you again for allowing me to represent CENTCOM 
before you today. I look forward to your questions.
    [The prepared statement of General Votel can be found in 
the Appendix on page 72.]
    The Chairman. Thank you.
    General Waldhauser.

 STATEMENT OF GEN THOMAS D. WALDHAUSER, USMC, COMMANDER, U.S. 
                         AFRICA COMMAND

    General Waldhauser. Chairman Smith, Ranking Member 
Thornberry, distinguished members of the committee, thank you 
for the opportunity to update you on the efforts of United 
States Africa Command. I am also honored this morning to be 
here with General Votel and Assistant Secretary Wheelbarger to 
discuss the challenges we face in our respective areas of 
responsibility.
    I would like to begin this morning by remembering the 
soldier we lost on the continent during operations in Somalia 
this past year. I offer my sincere condolences to the family of 
Staff Sergeant Alexander Conrad. We honor his commitment, 
service, and dedication to duty.
    We also honor the sacrifice of our African partners who pay 
the ultimate price advancing peace and development across the 
African continent. Additionally, we thank our families, our 
service members, our civilian workforce, especially those who 
serve on the continent, oftentimes in remote locations, for 
their professionalism and commitment to AFRICOM'S mission.
    2019 marks the beginning of AFRICOM's second decade as a 
combatant command. As we enter this period, we have adapted our 
strategy for Africa based on updated national guidance, which 
includes the President's 2017 National Security Strategy and 
the Secretary of Defense's 2018 National Defense Strategy.
    Specifically, the National Defense Strategy has shaped the 
focus of the armed services, outlining broad guidance to 
enhance readiness for high-end combat, while instructing the 
combatant commands, among other things, to strengthen alliances 
and attract new partners.
    The recently released U.S. Strategy Toward Africa, the 
Department of Defense Strategy for Africa, and the National 
Strategy for Counterterrorism refocused our whole-of-government 
approach in the era of great power competition to advance U.S. 
influence and maintain strategic access across the globe.
    Taken comprehensively, the overall U.S. strategic interests 
in Africa are very clear: Support the U.S. whole-of-government 
efforts to address security challenges; leverage partnerships 
to prevent transnational threats from overwhelming African 
governments or endangering U.S. interests; maintain strategic 
access and advance American influence, including economic 
opportunities; counter violent extremist organizations; and 
protect U.S. citizens and the homeland.
    To underscore the strategy for disrupting extremists, we 
remain committed to synchronizing our kinetic authorities. 
Persistent pressure on Al Shabaab, ISIS, and the al-Qaida 
associated groups remains necessary to prevent the 
destabilization of African nations.
    U.S. strategic interests on the continent cannot be solely 
advanced through the use of military force alone. AFRICOM uses 
the military tool in concert with diplomacy and development in 
order to negate the drivers of conflict and create opportunity 
for the African citizens.
    In Somalia, we work closely with the ambassador, now 
permanently located in Mogadishu, and the USAID [United States 
Agency for International Development] mission director to help 
the Somalians assume responsibility for their own security and 
prosperity.
    In Libya, our counterterrorism commitment supports the U.S. 
charge who works closely with the international community to 
prevent civil conflict and facilitate the political 
reconciliation process.
    Additionally, our engagements, exercises, and activities 
throughout Africa are designed to increase U.S. influence, 
strengthen local security forces, and ensure our status as the 
preferred security partner. For example, in East Africa, our 
programs continue to modernize partner security forces as in 
Ethiopia, Kenya, and Uganda, who export security and contribute 
forces to the African Union Mission in Somalia.
    In North Africa, we have seen significant return on 
investment with Tunisia and Morocco demonstrating the capacity 
to absorb advanced U.S. programs and lead the security-related 
exercises and operations.
    AFRICOM provides training, advice, and assistance to the 
western African nations which make up the G5 Sahel Force, as 
well as to the multinational joint task force working to 
contain violent extremism and secure the borders within the 
Lake Chad basin countries.
    Our partner networks and influence ensures access for U.S. 
forces in times of crisis to protect U.S. personnel and 
facilities, such as in Djibouti, a location with strategic 
significance to multiple combatant commands.
    In conclusion, the most important use of the U.S. military 
tool on the African continent is when our engagements emphasize 
relationships, capacity building, and professionalism. Our 
activities go beyond military maneuvers and tactics. They focus 
on a range of professional values, such as respect for the rule 
of law, human rights, and the integration of gender 
perspectives.
    I am proud to lead a team of professionals who have built 
strong and trusting relationships with African partners, the 
U.S. interagency, and the international community to foster 
security, stability, and prosperity in Africa.
    On behalf of the service members, civilian employees, and 
the families of United States Africa Command, thank you for 
your support, and thank you for the opportunity to be with you 
here this morning.
    [The prepared statement of General Waldhauser can be found 
in the Appendix on page 114.]
    The Chairman. Thank you all very much.
    When we get into the questions--this has come up--we try to 
keep it to 5 minutes. And I apologize to the witnesses, if we 
hit the 5-minute mark, I will try and cut you off. If there is 
a question you haven't answered, sometimes you can submit that 
for the record, although we try to keep it to 5 minutes both in 
terms of the answers and the questions.
    And with that, we will start with Mrs. Luria.
    Mrs. Luria. Well, thank you to the witnesses for being here 
today.
    And thank you, Ms. Wheelbarger, for mentioning the Middle 
East maritime domain, because that is what I would like to 
focus on today.
    Approximately 5 years ago, the Navy implemented the 
Optimized Fleet Response Plan, which resulted in more surge 
capability but less deployed on-station time for our carriers, 
basically switching from a 24-month cycle to a 36-month cycle.
    And, General Votel, in fiscal year 2019, was your request 
for carrier strike group presence met?
    General Votel. Congresswoman, no, we did not have carriers 
all the time that we would like them, and so we had to work 
solutions that included other platforms and other coalition 
partners to help meet those requirements.
    Mrs. Luria. So understanding that this is, you know, an 
unclassified hearing, could you quantify just maybe one-half, 
one-fifth, one-third, approximately the amount of carrier 
presence you received versus what you requested?
    General Votel. Congresswoman, I will take that for the 
record so I can give you a precise answer.
    [The information referred to is for official use only and 
retained in the committee files.]
    Mrs. Luria. Okay. So you alluded to this a little bit in 
your previous comment, but was your allocation for carrier 
presence sufficient to meet your ongoing security needs that 
you have in the region?
    General Votel. The presence that we have had has been 
sufficient to support the ongoing operations that we have been 
supporting in Afghanistan and Iraq and Syria in conjunction 
with our land-based capabilities.
    Mrs. Luria. And would you feel that they meet the 
requirements that you have for maintaining maritime presence in 
the AOR [area of responsibility]?
    General Votel. In some cases, we have been challenged in 
these areas of continuing to do that, so this, again, is 
something that we have to work with our coalition partners on 
to help offset this and--at times when we will not have the 
presence that we would like, and we look to use our coalition 
partners to help do that. And I think we have successfully done 
that.
    Mrs. Luria. So pivoting back to the impacts on you as a 
combatant commander of the Optimized Fleet Response Plan and 
the idea that it creates more surge capability versus more 
deployed capability, as a combatant commander, which of those 
is more important to you?
    General Votel. Well, I think certainly in CENTCOM, a key 
part of our responsibilities is assurance, and we do that 
through our presence, engagements, and other things we do, and 
deterrence against, you know, the influences in the region that 
would pursue malign activities.
    So those to me are the most important aspects that they 
provide for us, and, of course, you know, directly supporting 
the freedom of navigation and commerce through the critical 
choke points that exist in the CENTCOM area of responsibility.
    Mrs. Luria. So to leverage on your comments, the surge 
capability that is being created by the Optimized Fleet 
Response Plan where the carriers are, for the most part, 
remaining CONUS [continental United States] but available on 
demand, obviously adding a transit time to report to your 
theater, is limiting some of the capability you might have to 
respond in a contingency?
    General Votel. Well, I think we are early on in the concept 
right now. So, you know, I know the Department has successfully 
done this in other combatant commands. I have benefited from 
some of that capability residually being able to operate in my 
area and come down in my area. So we will look for 
opportunities. We are looking for opportunities where we can 
apply that concept as well.
    So I think we have a ways to go yet before we declare that 
this is not a concept that works. I think we have seen it work 
in other combatant commands, and we look forward to trying it 
in CENTCOM as well.
    Mrs. Luria. Okay. So finally, just to wrap up, do you feel 
confident in your ability to execute contingency plans 
potentially from our adversaries who might become a maritime 
threat within the region based off of the limited carrier 
presence that you have had over the last year?
    General Votel. Congresswoman, I do. I do.
    Mrs. Luria. Thank you. I yield the balance of my time.
    The Chairman. Mr. Waltz.
    Mr. Waltz. Thank you, Mr. Chairman. Gentlemen, thank you. I 
especially want to thank your families who truly bear the 
burden of your service. You love what you do, I know, but they 
truly have to bear the burden. It is a team effort.
    So I think broadly what the National Defense Strategy is 
trying to do, and it is a tough one, is how do we deal with the 
metastasizing Islamic extremist threat, peer competitors, rogue 
states, Iran, North Korea, overlaid with $22 trillion in debt? 
And what strikes me about your AOR is that it really is the 
cross section. It is really the confluence of China's One Belt, 
One Road, Russia's Middle East--push into the Middle East, of 
Iran's hegemony and, of course, the heart of the extremist 
threat.
    In reading your written testimony, what concerns me a bit, 
what I want to ask you about specifically as it comes to a 
couple of the theaters, is just kind of language in there 
shifting to being a supporting command, of doing more with 
less, of doing with less resources, particularly in the AFRICOM 
AOR. And while, of course, we do and this committee needs to 
help you invest in those near-peer or peer, I would say now, 
adversaries, I am very worried of the pendulum swinging too far 
and taking our eye off the ball in this extremist threat that 
is maybe on its back foot but is absolutely not defeated.
    And looking at your testimony in the Senate, I think you 
agree that ISIS and al-Qaida, you know, ISIS in particular may 
be defeated as a caliphate but not as a movement. In fact, I 
would argue, and tell me if you disagree, that that movement is 
growing and metastasizing, particularly across North Africa and 
absolutely can return to threaten the United States again.
    So looking at Afghanistan in particular, where half the 
world's terrorist organizations emanate, where the 9/11 attacks 
emanate, and reading recent reporting of a withdrawal based on 
a 5-year timeline as part of General Miller and Zal Khalilzad's 
negotiations, you know, I feel like I am getting transported 
back to 2009 with President Obama announcing withdrawal 
timelines.
    Do you, General Votel, think timelines as part of our 
strategy is a good idea, and have you been consulted on that 
timeline? Is that your best military advice?
    General Votel. I think, Congressman, I think most of us 
would say that these decisions have to be based more on 
conditions than on specific times. But I am certainly aware of 
the ongoing discussions here and, you know, have provided my 
advice. My advice is that any decision to reduce forces in 
Afghanistan should be done in full consultation with our 
coalition partners and, of course, the Government of 
Afghanistan. It should pivot off political progress in the 
reconciliation process.
    Mr. Waltz. Do the conditions on the ground now merit a 
withdrawal? And that is both a question for you and for you, 
Ms. Wheelbarger.
    General Votel. Congressman, we have not been directed to 
withdraw. There are no orders to withdraw anything. I have no 
orders----
    Mr. Waltz. But--and your advice is do the conditions merit 
a withdrawal, a reduction of forces, but whether it is the 
conditions of the Afghan Army, which I would think we would 
agree is not ready to stand on its own, or the battlefield 
conditions from a CT perspective.
    General Votel. Well, it certainly is a function of the 
conditions on the ground, but it is also a function of the 
conditions in the political process as well.
    Mr. Waltz. Right.
    General Votel. And so as I indicated, as I talked about, my 
best military advice is that we should make decisions based on 
the political process----
    Mr. Waltz. I am sorry, General, just in the interest of 
time, do the conditions now merit a withdrawal and your advice 
on--you know, 4 years at CENTCOM, on your way out?
    General Votel. The political conditions where we are in the 
reconciliation right now don't merit that.
    Mr. Waltz. Okay. General Waldhauser, I only have a few 
minutes. If I could ask you for the record to submit where we 
are on American citizen Jeff Woodke held hostage in Mali, what 
assets are being dedicated to find him. I think we owe the 
families that and all American citizens that, where we are. If 
you could submit that for the record, it would be great.
    I understand with optimization you are shifting to a 25 
percent withdrawal in a theater that was already an economy of 
force where, again, the Chinese and Russians are increasingly 
involved and we have a growing extremist threat. What are you 
not able to do with that reduction? What risk are we taking?
    General Waldhauser. First of all, Congressman, on the 
Woodke issue, I will submit that, and we can talk about it in 
closed session.
    Mr. Waltz. Thank you.
    General Waldhauser. Secondly, with regards to optimization, 
I know we just have a few seconds left to go here, but I just 
want to emphasize the fact that optimization on the African 
continent has to do with counterterrorism strategy only. It is 
a very small niche.
    And what we have been directed to do and what we have said 
we will do are two different things. And moreover, we have been 
directed to do a cut for the first--an optimization or 
adjustment or cut for the first 18 months, which takes us out 
to June of 2020, and I think the number the Pentagon has used 
was about 10 percent.
    So it is difficult to get into the numbers because they 
move around all the time. But if you say that there is 6,000 
military people on the continent today, then that number is 
roughly close, but in the next 18 months we will optimize some 
conventional forces and some special operations forces, 
primarily in areas where their work is pretty much done, where 
they have----
    The Chairman. I am sorry. The gentleman's time has expired. 
If you could summarize.
    We will move on to Mr. Golden.
    Mr. Waltz. Thank you.
    Mr. Golden. Thank you. Just to follow up a little bit on my 
colleague's questioning about Afghanistan. General Votel, could 
you tell us, in your opinion, if there were a negotiated 
withdrawal of U.S. forces without a Taliban-Afghan peace deal 
that accompanied it, could the Afghan Security Forces at this 
time provide for their own security and maintain a stable 
government without U.S. forces on the ground or air support on 
the battlefield?
    General Votel. My assessment is the Afghan forces are 
dependent upon the coalition support that we provide to them.
    Mr. Golden. Thank you. This question is for Assistant 
Secretary Wheelbarger. You know, it has been widely reported 
that our government is engaged in peace talks with the Taliban. 
In your opinion, or have you seen any indication at all that 
the Taliban is willing to consider expanding talks to include 
the Afghan Government at this time?
    Ms. Wheelbarger. I will preface by saying that Assistant 
Secretary Schriver actually is responsible for Afghanistan, 
Pakistan. I do cover NATO, so it is very important for me to 
follow so we can stay in close alignment with our RSM [Resolute 
Support Mission] colleagues.
    All indications I have is that the negotiations are 
proceeding with--in a positive direction. I think we all agree 
that it is important if we are going to reach the level of 
agreement where the insurgency is no longer a concern, it is 
going to have to involve an Afghan-Taliban reconciliation.
    Mr. Golden. So to summarize, given the current security 
situation on the ground, without, let's say, tri-party 
negotiations and a settled peace deal between the Afghan 
Government and the Taliban to include the United States, we are 
not on, let's say, a roadway to getting to withdrawal?
    Ms. Wheelbarger. Again, I would want to defer to my 
colleagues who cover this specifically, but I do think that we 
are seeing that this is an opportunity that we have not 
necessarily seen before and the military is poised to continue 
supporting the efforts of the reconciliation talks.
    Mr. Golden. Thank you. Just shifting gears a little bit. 
And, General Waldhauser, Semper Fi. Very good to see you, sir. 
Last year, you testified in front of the Senate Armed Services 
Committee that climate change was causing some security 
challenges in Africa in Sahel. It has been about a year, and I 
saw some recent reporting with ICRC [International Committee of 
the Red Cross] noting that temperatures are rising about 1.5 
times faster than the global average, and I think in this 
region we have got about 50 million people who depend upon 
livestock and therefore need land. And I think your comment was 
that you were seeing grasslands receding on average about a 
mile per year, which is pretty significant.
    I just want to give you the opportunity here, about a year 
later, to follow up on that testimony and tell us how you 
perceive the evolving situation in Sahel, what impact climate 
change is having on the security situation in the region in 
regards to competition over scarce resources, and how does this 
impact the mission of AFRICOM? What kind of steps are you 
having to take in order to ensure that we don't see conflict?
    General Waldhauser. The climate change situation continues. 
The area between--in the Sahel, between the desert to the north 
and the savannah in the south, the grasslands, those continue 
to recede. And this has caused problems between the farmers and 
the herders. And oftentimes, governments aren't able to 
establish control or laws or legislate that particular 
situation. So consequently, this becomes an opportunity for 
armed engagement within the various farmer-herder populations. 
Secondly--so that is on the security side, if you will.
    Secondly, on the humanitarian side, the issue of food 
insecurity and displaced personnel is a huge issue which 
continues. So this climate issue has some security aspects both 
kinetically, if you will, as well as humanitarian.
    Mr. Golden. Thank you. I yield back my time.
    The Chairman. Thank you.
    Mr. Bergman.
    Mr. Bergman. Thank you, Chairman. And, General Waldhauser 
and General Votel, thank you for always, during your long and 
very successful careers, setting the highest standards and 
being an outstanding example of not only keeping those 
standards, but raising the bar. As someone who served a few 
days in uniform myself, I am proud as I look at what kind of 
leadership the young soldiers, sailors, airmen, Marines, and 
coastguardsmen have today. So thank you for your long service.
    A little over a decade ago, having had the opportunity to 
sit in some interesting meetings in places like Fallujah or 
others and participating with various entities, tribes who 
wanted to come and talk to American military leadership, could 
you, if you will, describe--I have my--in the memories in my 
mind what those meetings were like. Could you describe what 
security cooperation and coalition building, give a couple 
examples in your arena, some of the--for some of our folks who 
maybe haven't sat in one of those meetings?
    General Waldhauser. Thank you, Congressman. I will take a 
shot at that first. You know, we are building an airstrip on a 
Nigerien compound in Agadez, in northern Nigeria--Niger. And 
one of the first times I went up there I met with the local 
population because they were very interested in what was going 
on. And you have a very, very diverse group of individuals who 
have different and sometimes overreach in terms of expectations 
about what we can do with them.
    And so not only to build the airfield there, we have a 
significant civil-military engagement program so that we work 
with the schools there to provide desks, we work with the 
medical people there to provide extra care, and we do things 
like find children who are lost in the middle of the desert, to 
help that population.
    So the bottom line is, your actions speak louder than 
words, and sometimes with diverse groups, small things go a 
long way. And it is important to understand the capabilities 
and limitations, and their expectations therefore can be met.
    Mr. Bergman. Thank you.
    General Votel. Congressman, I would add that one of the 
most successful coalition efforts that we have in CENTCOM is 
our coalition maritime force that operates in the waters of the 
Gulf and, in some cases, outside of the Gulf. And these involve 
nations in the region and, in fact, some nations from outside 
of the region who contribute people and ships to our--to the 
combined maritime force and help us conduct operations that are 
focused on counter-piracy, on combating terrorism, and on 
providing security in these critical waterways.
    And in all of these cases we have three subordinate 
combined maritime forces that operate under our naval commander 
in the region. These are all led by coalition partners. And 
these are all deeply valued relationships and missions by our 
coalition partners.
    And the authorities and the resources that are provided to 
us by Congress to maintain these things I think are being very 
well used. And it is one of the ways that we help make them 
more resilient, more capable of addressing their own security 
concerns. So of many coalition efforts, this is one that stands 
out in my mind.
    Mr. Bergman. Would either of you, just using Djibouti as an 
example, in an unclassified way, explain why we are there in 
that particular place, and also what other countries might be 
exerting a presence there now that maybe weren't there a while 
ago?
    General Waldhauser. The strategic geography of Djibouti is 
significant to our national strategies, and although it is in 
the AFRICOM AOR because as Djibouti is, various COCOMs 
[combatant commands], to include CENTCOM, utilize that 
location: CENTCOM, SOCOM, EUCOM [U.S. European Command], 
TRANSCOM [U.S. Transportation Command]. So this is a very 
strategic location for us.
    And I would tell you that this issue of either optimization 
or being able to share assets, CENTCOM and AFRICOM share 
assets, in this particular case ISR [intelligence, 
surveillance, reconnaissance] assets, attack aircraft assets, 
and we use Djibouti as a hub that allows us to be more 
efficient in use of some of our material.
    General Votel. No, I would absolutely agree. And I think it 
also makes better use of our resources. When we are able to 
shift resources back and forth across our combatant command 
boundaries, I think we are making better use of the resources 
the American people provide to us, and I think we are actually 
being more effective in terms of it.
    So locations like Djibouti, I think, are incredibly 
important to what is going on. Of course, it sits astride the 
Bab al-Mandeb, one of the three critical choke points. We do 
see the presence of others in the area. Certainly, the Chinese 
have interests here and are steaming in the waters of the 
Central Command on a regular basis.
    Mr. Bergman. Thank you. I hate to cut you off, but I know 
the chairman is going to say my time is expired.
    Thank you, Mr. Chairman. But thank you.
    The Chairman. Thank you. I appreciate you for doing that 
for me. But thank you.
    Ms. Haaland.
    Ms. Haaland. Thank you, Chairman, Ranking Member, and thank 
you all for being here this morning. Really appreciate it. And 
thank you for your service to our country.
    I understand that the framework for the negotiations 
between the U.S. and the Taliban would see Taliban vow to 
prevent the country from being used as a hub for terrorism in 
return for a U.S. military withdrawal.
    While Taliban leaders have recently expressed willingness 
to acknowledge some fundamental women's rights, I am deeply 
concerned that respect for human rights be a core part of the 
framework for peace. Any negotiated settlement must include 
respect for human rights and the rights of women in particular. 
Women's equality is enshrined in the Afghan Constitution, and 
the women of Afghanistan should have a seat at the negotiating 
table.
    General Votel, can you tell me how the framework addresses 
the rights of women in Afghanistan and how women are being 
included in the negotiation process, if you can?
    General Votel. Thank you. Thank you, Congresswoman. So I 
think at this particular point where we are in the ongoing 
talks is that Ambassador Khalilzad's efforts are really focused 
on developing a framework that can lead to intra-Afghan 
discussions. And this involves, I think, overcoming some 
obstacles that right now are preventing the Taliban from 
talking to the Government of Afghanistan. But, again, 
Ambassador Khalilzad is working through those issues. And then 
once that--once those intra-Afghan discussions are commenced, 
then I think we will have the opportunity to address the issues 
that you are talking about directly.
    But I am aware, while these are being led by our Department 
of State colleagues and Ambassador Khalilzad in particular, I 
am aware that, exactly as you state, it remains key points that 
we are interested in ensuring are included in the overall 
discussions and framework.
    Ms. Haaland. Thank you so much for that.
    I would like to turn now to the Afghan women serving in the 
Afghan National Defense and Security Forces. And if you can 
answer this question, how many women are currently serving in 
the Afghan National Army, and how are the challenges in 
recruitment and retention being addressed, and is that 
recruitment sustainable?
    General Votel. Congresswoman, I will take that question for 
the record so I can provide you a precise response.
    [The information referred to is for official use only and 
retained in the committee files.]
    Ms. Haaland. Thank you so much.
    And this question will go to Assistant Secretary 
Wheelbarger. Thank you so much for being here. Can you tell me 
how your office is pursuing the implementation of the United 
States National Action Plan on Women, Peace, and Security?
    Ms. Wheelbarger. I don't directly cover that issue, so 
unfortunately, I think I am going to have to take that for the 
record, and I will converse with my colleagues who are 
responsible for it.
    [The information referred to can be found in the Appendix 
on page 155.]
    Ms. Haaland. Okay. Thank you so much. I would appreciate 
that.
    And I yield back my time, Chairman.
    The Chairman. Thank you.
    Mr. Mitchell.
    Mr. Mitchell. Thank you very much.
    And thank you, both of you, for--I join my colleagues in 
congratulating you on your careers. I wish you well in your 
retirement. Your families deserve some of your time.
    I would like to follow up on Mr. Waltz's questions about 
AFRICOM, if I could. Given the discussions about reducing our 
footprint there, could you define for me what impact it may 
have on our counterterrorism effort in Africa, and does that 
undermine or threaten some of those efforts?
    General Waldhauser. First of all, let me just say that with 
regards to the terrorism effort, for sure. Somalia and Libya 
will really have--there is no impact there. There is no 
optimization. There is really no cutback. We will maintain our 
capability and capacity there. And by the way, those are the 
two countries on the continent where we have authorities to 
conduct kinetic operations.
    In other areas in the continent where we were directed to 
take a look at this, we looked at the locations where we have 
been training with partner forces for some time, in some cases, 
5, 6, 7 years. And so for the most part, those units are 
prepared and ready to execute on their own, and they have been 
for quite some time. So that is where we made the cut in our 
first tranche, if you will.
    But moreover, we continue to provide intelligence. We will 
continue to provide logistic support. And with partners like 
the French in Western Africa, we have got a great relationship 
with them and will maintain that partnership.
    So as I said, at the moment, we have been directed to 
conduct tranche one, which takes us out to June of 2020. So 
that is roughly, you know, 300 or so people coming off the 
continent, half of whom are conventional forces. And so at the 
moment, we don't see a significant issue there. And whether we 
will ever be directed to execute the second half is to be 
determined.
    And the final point I would make is what we have told the 
secretary, is that every one of these decisions will be made 
individually, and if we feel that it is not in our best 
interest to do so, we will reclama and push back on the plan 
that is in place at the moment.
    Mr. Mitchell. Let me ask you, it may not be appropriate 
here but maybe in closed session, to summarize systemic changes 
that have been made since the incident that happened in Niger 
where we had the four soldiers lose their life there. It may 
not be appropriate here, but I think it is appropriate in terms 
of some forum to get some feedback on that. I would like it 
because I am concerned the reduced footprint puts more people 
at risk.
    I was in Landstuhl right before the holidays and spoke with 
an officer there that is working on intelligence, and we can't 
get into where, but frankly, support for him was a long way 
away. And I am concerned, given the size of Africa, that we are 
not putting resources into that that we need to to deal with 
that.
    I guess it lets me pivot to the next question. Maybe it is 
more--I think for both of you and the secretary. Given the 
increased engagement of China, in particular in Africa, both in 
terms of their investment, and with that almost instantaneously 
comes to military engagement, do we have enough resources there 
both military as well as diplomatic and development resources 
to address those concerns? Because I know we deal with 
counterterrorism, but we have near-peer concerns I think we are 
overlooking.
    Ms. Wheelbarger. Well, I will start by saying that we 
definitely see China's influence in Africa as a key priority 
for us. Our efforts are multilateral in the sense of we look at 
all of our activities on the DOD side, whether it be exercises, 
training missions, military----
    Mr. Mitchell. Let me interrupt you. I apologize, but he 
will be a tough guy on time. The question I have for both of 
you is, are--do we have enough resources both in terms of 
military, development, and diplomacy to address the threats we 
have in Africa from not just terrorism, but from our near-peer 
adversaries? That is what I would like to address. Do we have 
them, and what do we do to get them?
    Ms. Wheelbarger. I think particularly on the development 
and the commercial side where China has a much more focused 
capability to, you know, bring resources to bear, we are 
challenged to keep up. And we could, particularly on the 
nonmilitary side of our government efforts, we could be seeking 
ways--we should be seeking and I know the interagency is very 
focused on finding ways to compete in the private commercial 
sphere in particular.
    Mr. Mitchell. What do you think, General?
    General Waldhauser. Very quickly, on the Niger thing, we 
can talk in closed session, but the bottom line is we have 
instituted practices and procedures that negate some of the 
issues that have taken place there in the past, as you referred 
to.
    With regards to the Chinese, and what is important for 
AFRICOM, in the Defense Department strategy on China, it 
specifically states in there that we can expect to get no more 
resources and maybe less. So that is fine. That is the 
umbrella. That is the intent.
    So my point would be is that we need to--we have 6,000 or 
so conventional forces plus special operations forces on the 
continent today. We need to maintain that threshold force in 
order to accomplish what you just described.
    Mr. Mitchell. Do you believe that is sufficient?
    General Waldhauser. It is adequate.
    Mr. Mitchell. Thank you very much. I appreciate it.
    I yield back my time.
    The Chairman. I think we will have to have a dictionary 
definition between what is the difference between 
``sufficient'' and ``adequate.'' I will let you guys discuss 
that later.
    Ms. Escobar.
    Ms. Escobar. Good morning. Thank you, Mr. Chair.
    And thanks to our panel. Thanks, especially, General Votel 
and General Waldhauser, for your service. Please thank the men 
and women who serve with you for their service as well on our 
behalf.
    I am especially concerned about something that the chairman 
mentioned in his opening statement about how our posture meets 
the threats, and obviously all of us here are interested and 
concerned about that, and what risks exactly, as he said, we 
are willing to accept.
    And to the question that just came before me and to the 
definition of ``adequate,'' I would like to expand a little bit 
on that. What is--at what point does it become inadequate, and 
what are the risks that we will have to accept if we don't move 
out of the adequate phase?
    General Waldhauser. Congresswoman, one of the challenges we 
have on the African continent is trying to accurately 
characterize the threat that we are up against. So, for 
example, one of the reasons why the Department gave us the 
optimization task is because the threats that we are working 
against aren't necessarily a threat to the homeland and may not 
be a threat to the region overall.
    Because many of these groups, you have the intersection of 
jihadist philosophy with crime, historical influence, criminal 
activity, shipping of weapons, drugs, people, cattle, and so 
forth. So because these groups may hang out a shingle and say 
we are with ISIS today, they may or may not have the intent or 
capability to attack outside their particular part of the 
country.
    So that is one of the challenges that we have. And so when 
it--again, to come more in compliance with the National Defense 
Strategy, to get more in line toward depth to dwell time, if 
you look at some of the threats on the African continent, 
sometimes, even though they may call themselves al-Qaida or 
ISIS, sometimes it is difficult to say they are a threat to the 
homeland.
    Ms. Escobar. Well, and last year, the Pentagon announced a 
reduction in forces to the AFRICOM region by 10 percent, 
obviously over time, but what will that reduction mean?
    General Waldhauser. So, again, I want to emphasize that 10 
percent reduction is in the counterterrorism forces only. And 
so the conventional forces that are on the continent every day 
right now conducting--for example, we have a shipping port in 
Algeria today. We have numerous small engagements across the 
continent. We have exercises that are ongoing that are 
conducted by our Army, Navy, Air Force, and Marine Corps 
components. We need to make sure those things maintain. We need 
to make sure we have threshold force for that. And then as we 
continue to observe and watch the threat from these 
counterterrorism groups, if we believe they are at a point 
where they have grown and their intent is perhaps more along 
threats to the United States, then we have to go back and ask 
for that.
    So in sum, I want to make sure that the line that we are 
walking away from the continent or we are leaving the 
continent, you have to remember that the task we were given was 
counterterrorism forces only. We have tried to take forces that 
have been involved in working with units that have been trained 
for quite some time and that their threat for the homeland is 
questionable, at best.
    Ms. Escobar. Thank you. Now, despite opening up a military 
base in Djibouti, some analysts say that China does not intend 
to grow its military presence in Africa but rather use 
telecommunication, infrastructure projects, and trade as their 
primary tools of influence on the continent. How will these 
avenues of influence change our ability to work with African 
partners?
    General Waldhauser. Well, there is no doubt about the fact 
that in AFRICOM, we are the only place really on the planet 
where China has an overseas base in Djibouti, as we have 
discussed, and we have talked about why that location is 
important for us and the challenges that it brings to AFRICOM 
and as well as the other combatant commanders. One of our key 
tasks is to maintain influence and gain influence vis-a-vis the 
Chinese. And so we want to make sure we are the partner of 
choice, and we will do that militarily through our training, 
through our equipment sales because of the quality, and so 
forth.
    But I think one of the things that needs to be done for the 
whole-of-government approach, which is what the Chinese do very 
well, is they work at the relationship. The number of high-
level officials who come to visit just to say hello and just 
work at the relationship is very high, and that is very 
meaningful to the Africans. The Africans don't want to be in 
the middle of great power competition between the U.S. and 
China. They want to be our partner of choice, but they will 
make decisions in their own best interest at times. But I think 
one of--again, one of the things we have to do from a whole-of-
government approach is, if we want to be the partner of choice, 
we have got to work at the relationship with high level of 
visits and engagements.
    Ms. Escobar. Thank you so much, General, for your testimony 
today. And I am so glad that I had the opportunity to meet you. 
I know this is your final hearing, and so I feel very 
fortunate. Thank you for your service.
    The Chairman. Thank you.
    Ms. Cheney.
    Ms. Cheney. Thank you, Mr. Chairman. Thank you all very 
much for being here today.
    Mr. Chairman, I would like to enter for the record a piece 
by Tom Jocelyn and Bill Roggio, ``The cost of withdrawal from 
Afghanistan,'' from December 22.
    The Chairman. Without objection, so ordered.
    Ms. Cheney. Also, ``al-Qaida continues to view Afghanistan 
as a safe haven,'' by the same authors, in the Long War 
journal. And a third piece by Ambassador Ryan Crocker, ``I was 
ambassador to Afghanistan, and this deal is a surrender.''
    The Chairman. Without objection, so ordered.
    Ms. Cheney. Thank you very much.
    [The information referred to was not available at the time 
of printing.]
    Ms. Cheney. General Votel, I appreciate your determination 
and your commitment in your testimony today to talking about 
how important it is that we be guided by conditions on the 
ground. But I have to say, when I look at the situation in 
Afghanistan and the policy that I am afraid we are pursuing now 
here, it looks like we are aggressively setting those 
conditions aside, aggressively ignoring the conditions on the 
ground. In particular, the discussions that are underway that 
both you and Assistant Secretary Wheelbarger have referenced 
that Ambassador Khalilzad is leading, I think you mentioned 
them as a path to progress, and then Assistant Secretary 
Wheelbarger said that they were going in a positive direction.
    We seem to be pursuing the same fantasy that we did in the 
Obama administration, which is that al-Qaida is somehow 
distinct from the Taliban. When I look at what has happened, 
when I look at the fact that Ayman al-Zawahiri, the leader of 
al-Qaida, has sworn an oath of allegiance to the Taliban. More 
recently, Ayman al-Zawahiri, the same leader of al-Qaida, 
claimed that the Taliban's resurrected Islamic Emirate of 
Afghanistan would be, quote, the nucleus of a new caliphate.
    So when I look at the situation there and I look at the 
extent to which we are dealing with the very entity that 
attacked us on 9/11, none of us want what the President has 
called endless wars; however, it would be far worse if we 
handed a victory to our jihadist enemies. And it would be, God 
forbid, far worse if we had another mass casualty attack in the 
United States.
    So I wonder, General Votel, if you could point me to 
anything that the Taliban has said or done to either renounce 
violence, to abandon their alliance with al-Qaida, or to say 
that they will abide by the Constitution of Afghanistan that 
should give us any hope that these talks are anything but a 
fantasy.
    General Votel. Well, they haven't made any of those 
statements, Congresswoman, as you know. But, again, as I have 
tried to cover in my opening statement here, this--we are very 
early in the process of this. There have been no agreements 
from either side. We have not given anything up and they have 
not given anything up.
    Ms. Cheney. But, General, is there anything you see that 
gives you confidence that it would be your best military advice 
that we could, in fact, negotiate any kind of agreement that 
you could count on the Taliban to uphold?
    General Votel. I think the fact that we are actually having 
discussions is a point that we have not reached in the 18 years 
we have been involved in this.
    Ms. Cheney. Well, General, I am sorry to interrupt. We 
actually did have discussions during the Obama administration. 
Secretary Clinton initially set these conditions and then 
completely abandoned them. And, you know, I don't have to tell 
you the history when we released the prisoners from Guantanamo 
in exchange for Bergdahl. So we have gone down this path 
before.
    But my concern is, even if, let's say for the sake of 
argument, that you believe that those negotiations could lead 
someplace, that we could, in fact, be doing the best we could 
for our national security by talking to the Taliban who are 
inextricably linked with al-Qaida, the organization that 
attacked us on 9/11, would it be your best military advice that 
withdrawing forces in the middle of that would, in fact, help 
to increase our credibility?
    General Votel. Congresswoman, we have remained very focused 
on the terrorism and counterterrorism mission that is 
happening.
    Ms. Cheney. But specifically the withdrawal of forces.
    General Votel. We could withdraw forces and not have an 
impact on our counterterrorism mission----
    Ms. Cheney. That is right, but, General----
    General Votel [continuing]. Against al-Qaida or any other 
groups.
    Ms. Cheney. Thank you, General. But you mentioned making 
sure that we had the maximum military pressure on the Taliban 
and on al-Qaida. And I fail to understand how it could be the 
situation that announcing withdrawal of forces is maintaining 
the maximum military pressure.
    An additional question would be, how is it conceivably 
possible that a negotiation that actively leaves out the very 
government that we say we are trying to help to encourage and 
sustain would lead us in the right direction?
    General Votel. It is not leaving out the government. 
Ambassador Khalilzad is well engaged with the Government of 
Afghanistan----
    Ms. Cheney. But the Taliban continues to refuse to talk to 
the Government of Afghanistan.
    General Votel. And this is the purpose of the framework 
discussions that are underway right now. I want to get to that 
point.
    Ms. Cheney. Thank you, General. I remain very concerned 
that we are headed down an extremely dangerous path. We will 
continue this in the classified setting, but this would be, 
were we to leave, a jihadist victory for the very forces that 
attacked us on 9/11. And while we have got to ensure that we 
are engaged in countering great power conflict in the threats 
we face, we cannot go down the path of ignoring the fact that 
these were the folks that provided safe haven to al-Qaida for 
the attacks on 9/11.
    Thank you.
    The Chairman. Thank you.
    Ms. Hill.
    Ms. Hill. Thank you, Generals and Ms. Wheelbarger, for 
being here. I also want to give a shout-out to the fellow 
Centurion in the room. I think we are the only two Katies from 
Saugus [California] who are in Washington, DC, right now.
    I want to dig in a little bit more on the focus on the 
great power competition. You all have mentioned the increased 
engagement in Africa and the Middle East by our near-peer 
adversaries, including referencing the regions of the 
crossroads of global competition with Russia and China.
    So, General Waldhauser, you mention in your report that 
Russia is actively involved in Libya and is invoking Qadafi-era 
relationships. Reporting also indicates that Russia is 
supporting the Libyan National Army. How is this challenging 
our efforts to help the current Libyan Government and our 
counterterrorism efforts in the country, and what are Russia's 
aims in Libya overall?
    General Waldhauser. We have three missions in Libya. One of 
them is the counterterrorism piece, which we have been at for 
quite some time. After the liberation of Sirte, if you will, 
where we had over almost 500 strikes, we have had 13 strikes in 
the last 2 years of a CT effort, but we maintain that. That is 
the first thing.
    The second thing we do, we are trying to--one of our 
missions is to prevent civil war, and we do that by not going 
one side or the other.
    And the third one is support the political process. And so 
what the Russians have done is overtly they have supported the 
U.N. [United Nations]-GNA [Government of National Accord]-
President Sarraj framework. But behind the scenes, there is no 
doubt about the fact they have supported the LNA [Libyan 
National Army] with all kinds of equipment, people, training, 
and the like. And they have supported Haftar, who has moved now 
from the east to the west, and essentially has taken a lot of 
real estate to get into a good position for leverage for 
diplomatic talks.
    Ms. Hill. And why would they want to do that?
    General Waldhauser. Well, I think when the music stops, 
they want to be on the winning side. And right now, you know, 
Sarraj has been the President for over 2 years. He has been a 
good partner for us. Special Representative Salame is trying to 
get elections by the end of year. And it is unclear whether 
Haftar would run for election, but he is going to be involved 
in some way, shape, or form. So when the music stops, the 
Russians want to be on the side if he gets in.
    Ms. Hill. But what strategic advantage would that give 
them?
    General Waldhauser. It gives them influence and it gives 
them influence in a key location in the southern Med on the 
southern part of NATO, if you will. And it allows them then to 
reinvigorate some old Qadafi era-contracts in the oil field, 
weapon sales, and the like. So there is a strategic interest 
for them to be behind both sides, but primarily really Haftar.
    Ms. Hill. So it is about resources and access to being 
closer to the southern border of----
    General Waldhauser. Correct. And influence as well.
    Ms. Hill. Okay, great. Not great, but thank you.
    You also discuss the Russian efforts in Central African 
Republic, which leads me to ask what are the Russian objectives 
on the continent more broadly? Why there? What are the other 
areas where they're----
    General Waldhauser. What the Russians are doing in the 
Central African Republic is very concerning, because they have 
the paramilitary group, the Wagner group, which is heavily 
involved there, not only in training, but also in influence at 
the highest levels of the government, to include the President. 
And meanwhile, they have been able to work the situation so 
they can have mineral extraction and so forth, gold, et cetera, 
to generate revenue as well.
    And so this model is very concerning in that if you bring 
in a paramilitary group, they influence the government, they 
extract resources. This is very concerning if that model would 
be applied in another country.
    Ms. Hill. Thank you. General Votel, in your assessment, how 
did the Russians react to the President's December announcement 
to withdraw from Syria?
    General Votel. I think they viewed it positively.
    Ms. Hill. The Russians viewed that decision positively?
    General Votel. They did, Congresswoman.
    Ms. Hill. Can you describe what advantage Russia gains with 
our withdrawal from Syria--proposed withdrawal from Syria and 
Afghanistan?
    General Votel. Well, I think what they looked at that, they 
looked at this as an opportunity to fill the void that we had 
provided in the support to the partners that we work with on 
the ground there. So they look to gain and perpetuate what the 
Assad regime was doing.
    Ms. Hill. And, again, why? What does this do for us? What 
harm does this potentially cause us and our allies? How does 
this help Russia as a whole as it is trying to regain its 
power?
    General Votel. Well, it makes Russia a bigger player in 
this area. And as we move, albeit slowly, towards some kind of 
end state in Syria, it puts Russia more in the driver's seat in 
terms of what that solution might be. And, of course, it 
solidifies their presence in the Middle East in this critical 
part of the Levant right here. So I think that is an important 
objective of theirs.
    Ms. Hill. So to put it very bluntly, the President's 
proposals directly allow Russia to gain more influence in the 
Middle East, potentially endangering us and our allies?
    General Votel. No, I don't think that is what I said. I 
said our withdrawal from there gave them the opportunity to 
fill the void. Obviously, things would come after that would 
increase their influence in pursuing, you know, some kind of 
political settlement, but it would certainly give them the 
ability to be in a better position.
    Ms. Hill. So, again, the proposal to withdraw troops from 
Syria and Afghanistan provides an opportunity for Russia to 
gain additional power and to potentially grow the global 
threat?
    The Chairman. I am sorry, the gentlelady's time has 
expired.
    Ms. Hill. Thank you.
    The Chairman. I do want to ask one quick followup on that. 
As of right now, is there any specific plan on the withdrawal? 
And you can tell me what is classified and what is not. A 
timeline, I know the President announced it in a tweet, as I 
said in my opening remarks. I don't think that was a 
particularly wise way to set up policy, and then we sort of set 
up the policy after he tweeted. But what is the timeline, if 
there is one, on withdrawal from Syria? And what do the numbers 
look like?
    General Votel. I look forward to talking about this in the 
classified session.
    The Chairman. Okay.
    General Votel. But what I would say is that what is driving 
withdrawal of course is our mission, which is defeat of ISIS. 
And so that is our principal focus, and that is making sure 
that we protect our forces, that we don't withdraw in a manner 
that increases the risk to our forces. There is not pressure on 
me to meet a specific date at this particular time. And I look 
forward to talking more in details in a closed session.
    The Chairman. I am sorry. We can do it in closed session. I 
just want to make one final, you know, policy political point. 
What seems to be driving the withdrawal is the President's 
split-second decision to send out a tweet saying we are going 
to get out of Syria. Okay. Now, I hear what you are saying in 
terms of what you are working on, but in terms of the public 
perception, the international perception, is that prior to that 
tweet, it wasn't planned. He sent it out, now we are 
responding.
    So I take your point, and that is obviously the argument we 
want to make, is that what is driving our military decisions is 
military necessity. It does not appear that way in this case, 
given the way the President has communicated.
    Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman.
    General Votel, you have already heard a great deal of 
skepticism expressed about Special Envoy Khalilzad's 
negotiations with the Taliban for reconciliation. Why shouldn't 
we be skeptical?
    General Votel. Congressman, my view, we have come further 
in the last 6 months than we have at any time in the last 18 
years. Since the announcement of the South Asia strategy by our 
President, the Government of Afghanistan, the President of 
Afghanistan has announced that he is willing to meet. We have 
had a cease-fire. The first time we have done that, both sides 
did that. It was short, but it gave a glimpse of what could be. 
And the meetings and the sessions that have taken place over 
the last 5 or 6 months I think have moved this further along 
than it is.
    It is a difficult problem. We are still at the front end of 
this. I acknowledge that. And we have a ways to go. But the 
Taliban has come to the table. We have seen Pakistan play a 
more helpful role in helping that occur. So to me, these are 
things that we have not seen in the past that we are now 
seeing.
    Mr. Banks. I appreciate that, but with all due respect, the 
vagueness of what we hear about timelines and conditions, it 
paints a skeptical picture for me and so many others in 
wondering if this path will lead anywhere. But yet in a rose-
colored world, if these negotiations were successful, if there 
was an agreement that was signed between us and the Taliban, 
what would happen at that point in that rose-colored world?
    General Votel. I think if you look at what I think winning 
in Afghanistan means, it means two things, Congressman. It 
means a negotiated settlement between the Government of 
Afghanistan and the Taliban, and it also means safeguarding 
U.S. national interests, particularly ensuring that this 
country, this region can't be used to attack our homeland. So 
that would have to be satisfied as part of any overall 
agreement here in terms of that. And I think that is a lot of 
the nuance of the ongoing discussions that are taking place 
right now.
    Mr. Banks. Is ISIS-K potentially a threat to the homeland?
    General Votel. I think ISIS-Khorasan does have ideations 
focused on external operations towards our homeland, yes.
    Mr. Banks. General, some of your predecessors have 
testified before this committee before and articulated a 
sustained presence strategy in Afghanistan. Would you agree 
with that approach, maybe articulate what that means?
    General Votel. I think as long as there is a terrorist 
threat, whether it comes from al-Qaida or ISIS or any other 
group that perpetrates threats against our country, I think we 
have to ensure that they are either through our own presence or 
through whatever other arrangements we can make, that we can 
address that particular threat.
    Mr. Banks. So therefore a sustained presence in Afghanistan 
in some shape or fashion would allow us to combat that ongoing 
presence of ISIS-K or other threats that might be posed from 
Afghanistan?
    General Votel. That would certainly be one way of doing it, 
Congressman.
    Mr. Banks. What would a sustained presence look like?
    General Votel. Well, again, I think this might be a better 
discussion for a closed-session hearing to give you a little 
bit more detail. But I think it looks a lot like it looks right 
now. It looks like making sure we have got partners on the 
ground we can operate with; it looks like we have the right 
collection assets in so we can keep an eye on this; and it 
means that we have the right unique capabilities from a U.S. 
standpoint to address this particular--and keep the pressure on 
this network like we have been doing.
    Mr. Banks. General, when should the American people and 
members of this committee expect a better defined idea of the 
timeline of these negotiations between Special Envoy Khalilzad 
and the Taliban?
    General Votel. I think I would have to refer you to the 
Department of State on that since that is who Ambassador 
Khalilzad works for, and they would probably be better to 
provide some type of timeline, if there is one.
    Mr. Banks. So no reasonable expectation of when that 
timeline would be?
    General Votel. Congressman, it is underway right now. I 
mean, it is proceeding, and it is a complex environment. In my 
estimation, I think Ambassador Khalilzad is doing the very best 
that he can to move this forward. And our job, my job as a 
CENTCOM commander is to make sure he has the military support 
to move forward on that objective. Our end state here is 
reconciliation, that is the end state of the President's South 
Asia strategy and that is what we are focused on. So the whole 
of our efforts is supporting Ambassador Khalilzad.
    Mr. Banks. I appreciate that. I had hoped today that I 
could eliminate some of my skepticism, but the vagueness of the 
nature of these negotiations and what I have heard today leave 
me even more skeptical than before. I am not sure that Special 
Envoy Khalilzad's best that he can do is good enough.
    With that, I yield back.
    The Chairman. Thank you.
    Ms. Slotkin.
    Ms. Slotkin. Thank you.
    Thanks to our witnesses. I certainly know, Ms. Wheelbarger, 
exactly how it feels to be exactly in your shoes. And to both 
generals, I have really enjoyed my time working with you.
    And, General Votel, since you were so short, I think it is 
worth noting you are one of the most creative, out-of-the-box 
thinkers we have in our senior leadership. Your career defines 
what it means to fight in the post-9/11 world. And I think the 
American public will probably never know what you did to help 
us protect ourselves from terrorist threats. So I thank you for 
everything you have done.
    And I would be remiss if I didn't take advantage of this 
opportunity with you with more--just 3 weeks left to ask you 
kind of some bigger picture questions on how the U.S. fights in 
the post-9/11 era. The theory of the case for me is that we 
cannot fight global threats without a global coalition, that 
without partners and allies, our ability to protect ourselves 
is at least diminished, at best diminished, and at worst leaves 
us less safe.
    So can you just walk me through what you believe happens if 
allies and partners are not providing support to us in these 
global fights in your region?
    General Votel. Well, thank you, Congresswoman. So very 
clearly, we are very dependent upon our coalition partners, not 
just for basing and accessing in the region, but certainly for 
the additional capabilities that they take. We bring a lot, the 
United States brings a lot to these operations, but we don't 
bring everything. And so many of the unique capabilities that 
we rely on in these coalitions do come from our coalition 
partners, whether it is medical, whether it is sustainment, 
whether it is training, whether it is advising. They augment, 
they supplement, they complement the things that we are doing. 
And so that is an important aspect.
    But the other thing is it brings with--the coalition aspect 
brings with it the will of the world, if you will, or the will 
of the coalition. So it is more than just one nation who is 
standing up for something. In the case of Iraq and Syria, it is 
79 nations and international organizations that are saying we 
are focused on this particular mission right here. So to me 
that is one of the most important aspects of the coalition 
approach.
    Ms. Slotkin. So many of the members of this committee went 
on a bipartisan congressional delegation to the Munich Security 
Conference. We heard in real time from our allies their deep, 
deep concern with the way that the U.S. and the administration 
was handling informing them about our plans in the world, 
particularly, as was referenced, the tweet to get out of Syria, 
when many of them are fighting with us in Syria.
    In your experience, if we alienate our allies and make it 
politically difficult for them to join with us in these 
operations, what happens to the quality of our operations? Do 
they go up or do they go down? And kind of--I know General 
Mattis was really clear about this in his final letter, but if 
you could just talk to us about, you know, the quality of our 
operations if these partners and allies just say no to joining 
with us.
    General Votel. Well, Congresswoman, I think it certainly 
makes it more difficult to pursue some of these missions 
without the partnerships that we depend on out here. And as I 
have already mentioned, we lose capabilities, we lose some of 
the sustainment that comes along with our operations there. So 
I think it makes it much more difficult without--doing these 
things without partners.
    Ms. Slotkin. And, you know, we were--a number of us wrote a 
letter, a bipartisan letter to the President asking that he 
reconsider his decision to fully pull out of Syria. A number of 
us are very happy to see that a small force is going to be 
remaining there. We all take note when you say that ISIS, while 
the caliphate has certainly been depleted, that ISIS has 
largely gone to ground, that they have not sort of had a change 
of heart in how they feel.
    Tell me, if you could in an unclassified setting, what you 
believe the likelihood is that we will, with the small force 
that we have staying behind, ability to keep them suppressed at 
least from returning at least a piece of that caliphate.
    General Votel. I am confident in this. And I think we have 
to look at the force, not just as U.S. forces that retain on 
the ground, but other coalition forces. We need to look at our 
Syrian Democratic Force partners that number 60,000. And then 
we need to look at our over-the-horizon capabilities that we 
can bring to bear. And as we go through the planning of this, 
we are looking at all of those capabilities. As I mentioned, 
this is ongoing right now. But I think by looking at all those 
different pools of forces and capabilities that we have, we 
will have the capabilities we need to do the mission we have 
been asked to do.
    Ms. Slotkin. Thank you. And to both generals, 
congratulations on your retirement, well earned, and thank you 
for your service.
    The Chairman. Thank you.
    Mr. Gaetz.
    Mr. Gaetz. Thank you, Mr. Chairman.
    General Waldhauser, I have a number of constituents who 
contribute to the train and equip mission in Africa. Can you 
share with us the circumstances where we have been most 
successful at moving the needle in the capabilities of our 
partner nations and then where there are places where we 
haven't made as many strides as we would have hoped?
    General Waldhauser. Well, I think one example that I will 
always use is Tunisia, Tunisia, where the whole revolution 
began and so forth. And over the past few years, they have done 
a tremendous job to essentially restructure their entire 
military towards a threat that is relevant to them. And they 
have been a willing partner. They have been able to absorb a 
lot of institutional-level guidance and training, so they have 
been a success story as well.
    And I think in other places, even like Cameroon, for 
example, with the challenges there with the Anglophone region 
and the like, the Buea force has been a good counterterrorism 
partner, and they have progressed to the point where they are 
operating on their own and so forth. And I would just mention 
that as part of that, you know, the whole law of war, the whole 
battlefield ethics speech, that is always a part of the 
training and equipping that we do. And so we have programs 
across the continent, these 333 programs where we will put 
equipment in various countries, you know, whether it is 
Djibouti or Somalia or Burkina Faso, these are very, very 
important to us. So those are a couple of examples where we 
have had success.
    Mr. Gaetz. And where have we not met our expectations 
regarding capabilities of partner nations?
    General Waldhauser. Well, without singling out specific 
nations, I think the point is, is that when we embark on these 
engagements, we have to make sure we understand what the 
country can absorb. And we can't do things or expect things if 
they don't have the institutional capacity to deal with 
logistical training, to deal with sourcing and so forth.
    Mr. Gaetz. Should I make much of the fact that you didn't 
identify many Central African nations among the successes?
    General Waldhauser. Well, the Central African nations that 
we work with to a large degree our train, advise, assist, and 
equip piece is probably not as robust in other places. I mean, 
the countries that we deal with to a large degree have the 
terrorism threat, because one of the key things is to fight 
that threat over there and keep it over there. And our 
engagements with other countries, we take our cues from State 
Department too. If there is issues in terms of law of war 
violations or governmental problems, we sometimes take our cues 
from the State Department with regards to how much we engage.
    Mr. Gaetz. Very illuminating. General Votel, is Yemen a 
failed state?
    General Votel. Yes, I do consider Yemen a failed state.
    Mr. Gaetz. Thanks.
    I will yield the remaining time to General Bacon.
    Mr. Bacon. I appreciate the leadership and your careers. 
Congratulations on your retirement, and thanks to all three of 
you for being here today.
    I just want to add my skepticism as well on our 
negotiations with the Taliban. You know, they continue to be 
closely aligned with ISIS, al-Qaida. They have murdered 
thousands of--continue to murder thousands of people in 
Afghanistan. And I think it looks terrible when we are 
negotiating with them without the Government of Afghanistan, so 
I just wanted to publicly state that.
    In Syria, what are we going to do with 800 or so detainees 
I have been hearing about that are from ISIS? General Votel.
    General Votel. Well, this is a matter for our Department of 
State and Department of Justice to work with international 
partners. As the President has said, they need to go back to 
their nations where they can be properly prosecuted right here. 
The Syrian Democratic Forces are performing a service for the 
world by holding these foreign terrorist fighters right now, 
and they need to go home where they can be dealt with properly. 
So that is the principal mechanism that we are pursuing right 
now.
    Mr. Bacon. That would be a terrible development if they get 
released, one way or the other way, outside of being a threat 
to us and Europe and beyond.
    In Yemen, are we still seeing evidence of Iran arming the 
Houthi rebels?
    General Votel. Absolutely, Congressman.
    Mr. Bacon. And when was the last time we saw Scud missile 
launches or any other kind of ballistic missile launch into 
Saudi Arabia? Because I think that is not being widely reported 
that that was going on, and that has been part of the reason 
the Saudis are taking actions the way they have.
    General Votel. We have seen a decrease in ballistic missile 
launches, and there is some reasons for that that we can talk 
about in the closed session, but we have seen an increase in 
unmanned aerial systems and, again, this at the hand of Iran 
providing these advanced capabilities to the Houthi rebels.
    Mr. Bacon. Our political debate on how to support Saudi 
Arabia, whether to or whether not, that is just a forgotten 
part of what is going on with Iran, helping the rebels and how 
they are also attacking the Saudis.
    One last question to General Votel. Are we having any 
success or progress of Pakistan in the safe havens they are 
providing the Taliban?
    General Votel. We have had--as I mentioned a little bit 
earlier, we have had success with Pakistan. They have been more 
helpful in terms of bringing the Taliban to the table as we 
have requested them. We have seen instances where they have 
taken action against the safe haven areas. Clearly, there is 
more they can do, and we have encouraged them to continue to do 
that. But we have seen some positive indications.
    Mr. Bacon. Thank you. I thank my friend for yielding, and I 
yield back.
    The Chairman. Thank you.
    Ms. Torres Small.
    Ms. Torres Small. Thank you, Mr. Chair. And thank you, 
General Votel and General Waldhauser, so much for your service. 
Thank you as well, Assistant Secretary Wheelbarger.
    I specifically appreciate your discussion about coalition 
building. And Congresswoman Slotkin as well as Congressman 
Bergman, both recognized that need as well. And we also had 
some discussion about China and their impact on Africa and how 
that affects potential coalition building.
    So we have seen China open up the military base in 
Djibouti, but it appears and some analysts think that they are 
increasing their focus more so on the telecommunications, the 
infrastructure, and the trade. Do you see those avenues as more 
of a threat for our engagement with African partners than if 
China had opened up more military bases, for example, or 
conducted training or conventional military operations?
    General Waldhauser. That is a very interesting question and 
complex in several different ways. Obviously, Djibouti is the 
first overseas Chinese base. I have said before, I don't 
believe it will be the last. They are looking for other areas 
and so forth, especially ports. Because what they want to do to 
a large degree, the infrastructure they build--ports, roads, 
bridges and whatnot--is tied to the extraction, mineral 
extraction they are conducting in those countries. So 
consequently, there is a tie there.
    Now moreover, their military growth for the future, 
although unclear, they certainly want to protect those 
investments. They want to protect the population and the 
workers that they have there. So some would say that this was 
just a first step and that they are getting many lessons 
learned. Because it is a challenge to have a base in Djibouti 
from China. And there is a lot of growing pains with that. But 
they are learning from that, and some would say that--and we 
have some reports that I could probably go into in the closed 
session that they may look to increase their contributions to 
some of these groups that are in the counterterrorism effort. 
So I think that in the future, it is very likely that they 
could increase their military presence.
    But real quickly on the trade business. You know, when 
Secretary Tillerson visited there a while back as a previous 
Secretary of State, you know, he talked about how the Chinese 
should be very careful--or the Africans should be very careful 
about some of the deals they make with the Chinese, because it 
is no secret about the debt issue in Djibouti that the Chinese 
own. There is other countries where some of the projects that 
the countries are walking away from because either it is too 
expensive or they have figured out the deal is really not good 
for them. And so there are some challenges.
    But, again, those countries need to make those decisions 
for themselves. And that was one of the issues that senior--you 
know, Paul Kagame, who at the time was the AU [African Union] 
chairperson, made that point that these governments can make 
those decisions for themselves. And our point is, when you make 
those decisions, just go into them clear-eyed and understand 
what you are signing on the dotted line when you sign with the 
Chinese.
    Ms. Torres Small. Speaking to that clear-eyed aspect, has 
China operated this way with other regions? And if so, are 
there additional phases of involvement that we might 
anticipate?
    General Waldhauser. Well, I think that--I will just speak 
to the African continent. I mean, the Chinese have been there 
for quite some time. Their investments in infrastructure, they 
do a great job. They will build soccer stadiums. You know, they 
will do things for the population that, you know, gains and 
maintains influence. Meanwhile, we do things like Millennium 
Challenge Corporation, power programs in the Senegal or even in 
Niger, these huge programs over a 5-year period, $437 million 
in Niger, for example. This is a whole-of-government approach 
too. And we need to do a better job of publicizing those things 
that we are doing on the soft side of power that will help our 
influence, vis-a-vis China.
    Ms. Torres Small. In my short amount left, I want to switch 
very quickly to Yemen and touch base about the end of the in-
flight refueling Saudi coalition. When did CENTCOM make the 
decision to end that mission?
    General Votel. We ended that in November of 2018, 
Congresswoman.
    Ms. Torres Small. And who made that decision to end it?
    General Votel. That was a request by the Saudis, but it was 
directed to me by the Secretary of Defense at the time.
    Ms. Torres Small. Under what authority was CENTCOM 
operating when the decision was made not to charge over $300 
million in U.S. fuel in in-flight refueling services?
    General Votel. Thank you for asking that. And, Chairman, I 
would just ask for a little allowance here so I can address 
this in a little bit of detail.
    First of all, it is--as the CENTCOM commander, it is my 
responsibility. I am responsible for everything that happens 
within CENTCOM and doesn't happen within CENTCOM. And so when 
we fail to charge properly on this thing, I accept the 
responsibility for that on behalf of our command.
    There are a variety of things that went wrong. Mostly, we 
ignored our own well-developed protocols and procedures in this 
case. We identified those problems that we began identifying 
that last fall and put together a team, a cross-agency team to 
make sure that we understood what was happening and that we 
could. We worked through the issue, identified what the costs 
were, and then delivered those to the appropriate countries. 
And we will receive full and proper reimbursement for that.
    Ms. Torres Small. It's a mark of a great leader to take 
responsibility. I deeply appreciate that.
    The Chairman. Thank you.
    Mr. Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman.
    I would like to pull the string on a previous line of 
questioning. I think it is important, because when we talk 
about NDS implementation, it is easy to focus myopically on 
INDOPACOM [U.S. Indo-Pacific Command] and EUCOM. And I am glad 
that we have had a variety of questions about Chinese influence 
and access in the CENTCOM and AFRICOM AORs.
    And I just would just ask, General Votel, to what extent 
does the Shanghai International Port Group's agreement 
regarding the Haifa port in Israel represent a problem for the 
U.S. military over the long term? We heard some reporting that 
the U.S. Navy was considering reducing some commitment to 
Israel. I know that sort of spans a lot of different COCOM 
authorities there, but just to what extent do you view that as 
a problem, and what do you think we should do about it?
    General Votel. Congressman, again, I would remind you that 
the Haifa port is in Israel and is outside of my area of 
responsibility, but I do recognize that that does have 
influences on areas. So we are concerned about that, the fact 
that there is--the great power competitors have access into 
those ports along the Mediterranean that have very direct 
access into the region. I think this is a reason for concern.
    Mr. Gallagher. Can you, both of you, I just--what parts, as 
you look at the Belt and Road initiative in your respective 
AORs, where would it present a difficulty for us in terms of 
operational access, either in terms of our ability to operate 
with key partners or new potential access by Chinese forces? 
Just help flesh that out for us a bit.
    General Votel. Congressman, in the CENTCOM area of 
responsibility, the principal place for seeing this is in 
Pakistan, with the China-Pakistan Economic Corridor, which is 
an artery of the One Belt, One Road aspect. So that is in 
progress right now. And it is--and there is definite Chinese 
influence in that particular area. So as they develop that land 
route, what they are attempting to do then, we expect, is they 
will then be looking for ports that they can connect that to, 
ports in southern Pakistan, leaving the ports in AFRICOM. And 
then for us, it is going to lead to a permanent presence of 
Chinese maritime--military maritime activity in the region that 
we will need to be concerned with.
    General Waldhauser. So with regards to AFRICOM on the 
ports, let me just first say that overall--and I am not an 
expert in port operations, but the Chinese have equities in 
ports around the globe. So it is not unique, for example, that 
they have equities in Israel. It is not unique that they have 
equities in Djibouti and other places. That is the first point.
    The second point is, with regards to the Djiboutian port, 
you know, this is the maritime piece of the One Belt, One Road 
initiative, if you come into Djibouti in that part of the 
continent up into Africa. So that is a big part of their 
strategy, and they are trying to tie it together.
    Inside Djibouti, you know, the port facility there has 
about five or six separate ports. The one we are concerned 
about is the Doraleh container port. Last year at this time 
when I testified, the Djiboutians just took it back over from 
the Emiratis. The fear is that if the debt issue with Djibouti 
is not taken care of, that perhaps the Chinese could take that 
port over.
    But I can tell you that in conversations that I have had 
with President Guelleh and other leaders have had with 
President Guelleh, they have assured us that that is not going 
to be the case, that they will make sure that we have access to 
that particular port. Because 98 percent of what the logistics 
effort that we need on the eastern part of Africa, in Somalia, 
in Djibouti comes through that port there.
    Mr. Gallagher. I take your point about, to the extent I 
understand it, that the Chinese obviously have legitimate 
economic interests in a variety of ports around the world. But 
the whole reason we did the comprehensive review of our CFIUS 
[Committee on Foreign Investment in the United States] process 
last year was because the line between legitimate economic 
interests and CCP [Communist Party of China]-directed espionage 
and PLA [People's Liberation Army] military duty is often very 
opaque. Right?
    I wonder, do you have conversations with your partners sort 
of in the way we have conversations amongst ourselves about 
CFIUS and foreign investment about the structures they have in 
place to analyze Chinese investment and really determine what 
is legitimate and what isn't? In either order.
    General Waldhauser. Well, I can say--and perhaps, Katie, 
you should take that--I know our country teams and ambassadors 
do that. From the military perspective, we try to make sure 
that we make the case that we are the best partners and try to 
give that top cover.
    Ms. Wheelbarger. I will most definitely say that is a key 
point with all of our engagements with the international 
community, not just in these AORs but in Europe as well. And I 
know the previous Congresswoman touched on telecommunications 
infrastructure. That is a priority of our Department right now, 
to highlight the real challenge that we will face both 
militarily as well if the Chinese build out these 5G networks 
all over the world. The telecommunications security is sort of 
a backbone security requirement for all of us. So it is very 
much a top line in all of our engagements.
    Mr. Gallagher. I yield my 2 seconds left.
    The Chairman. Thank you. I appreciate the benefit. And I 
was going to say, we have a hard stop at noon. We will get to 
as many people as we can.
    Mr. Crow.
    Mr. Crow. Thank you, Mr. Chairman. And thank you to all 
three of you for your insightful, candid testimony.
    General Votel, always good to see a fellow Ranger. Rangers 
lead the way. Thank you for your continued service.
    In my time in Iraq and Afghanistan, I learned of the value 
of our partners and our alliances. And I have been very 
troubled by some of the comments of this administration with 
regard to those partnerships and those alliances. And I know, 
General Votel, you weren't consulted in the Syria decision. 
Have the three of you had to spend time in the last 2 years 
talking with our partners and our allies, NATO and others, to 
reassure them that we remain committed? And have you received 
questions and concerns from those allies?
    General Votel. I will start, Congressman. Certainly we 
have. I think this is a very standard thing that we talk with 
all of our partners about routinely here, about our strategies 
and where we are going with this and reassurance on our 
commitment to the collective security of the region here. So it 
certainly is something we talk with our partners about all the 
time, have for the entire time I have been in this position.
    Mr. Crow. But within the past, let's say within the past 
year, especially with respect to comments on unilateral 
withdrawal from Afghanistan and Syria, has that created 
especially acute concerns?
    General Votel. Well, it certainly has. I mean, some of the 
rather sharp announcements here are things that have caught 
their attention, and we have had to talk about that. But again, 
this is something that we have routinely talked about. As I 
came into this position in 2016, a big topic was JCPOA [Joint 
Comprehensive Plan of Action] and our decision to enter into 
that. And so that was a big discussion point with all the 
partners in the arrangement, many who did not agree with that 
decision. And so we had almost the opposite situation in that 
particular case. So I think this is something we always have to 
talk to our partners about.
    General Waldhauser. Very briefly, I would just say that 
this is a conversation we always have, and we will always 
continue to have. Because the bottom line is it is important to 
have a good working relationship, mil-to-mil relationship. 
Because if for whatever reason the political relationship goes 
off tracks or hits a bump in the road, if you have a strong 
mil-to-mil relationship, if you have a good partnership, that 
will carry the day. And that is where we try to come at it for 
the military side.
    Ms. Wheelbarger. In particular with respect to on the 
political side or the policymaking side, the coalition, 
particularly the 79-strong D-ISIS [Defeat-ISIS] coalition is a 
huge value, as the general said, to sort of the moral authority 
of the global campaign--or the global effort to address a 
global threat. I think in the days and weeks after certain 
decisions, yes, we obviously keep up the level of transparency 
as much as possible.
    I mean, everybody knows that the Syria tweet was somewhat 
of a surprise. And so, you know, I did call all of the core 
group of the coalition the day after to make sure that they 
understood both what it was but also what it wasn't. And it 
wasn't sort of they are all leaving tomorrow. Of course, as 
decisions evolve and we are living in a dynamic world, we are 
living in a dynamic policymaking world as well, you know, we 
continue to keep them as informed transparently and in 
connection as possible.
    Mr. Crow. Thank you. One last question. Do you all believe 
that you have sufficient data and information regarding the 
emerging threats posed by climate change, namely disease 
outbreaks, pandemics, displacement of populations, and drought 
to take into account as you develop your op [operation] plans 
within your respective commands?
    General Votel. Congressman, I do. That is provided to us at 
the Department of Defense. And from my staff's standpoint, I 
believe we do.
    General Waldhauser. I believe we do as well. And I would 
just echo the fact that in the AFRICOM AOR, this is a big part 
of whatever we do. A crisis response not only is kinetic, but 
tied to the Ebola outbreaks, the disease outbreaks, and it is a 
big part of our strategy with regards to containing that type 
of threat on the continent.
    Mr. Crow. Thank you. I yield back.
    The Chairman. Thank you.
    Mr. Kelly.
    Mr. Kelly. Thank you, Mr. Chairman.
    First of all, I just don't think I can go and let people 
say things without responding. First of all, our failure to 
respond in Syria in 2013 left a void, which the Russians 
quickly filled where they had not been before, but because we 
had no action whatsoever for a long period of time, even a 
delayed reaction after the gassing, the government gassed their 
own people. That is part of the reason that we have Russian 
influence in Syria now, not just the tweets of recent days.
    Second, I had a much different experience in the Munich 
Security Conference with Senator Inhofe, with our allies and 
our people there, than obviously other people, my colleagues 
did. Because what I found in our European allies and allies 
across the Nation, we met with Germany, we met with Afghan 
President, we met with Poland, is there is a much greater 
participation in meeting their 2 percent GDP [gross domestic 
product] requirements as to their militaries across Europe, 
which means we have partners who are actually contributing 
rather than talking. So I think that is very important to point 
out.
    We also went to Africa and met with President Kagame, with 
Prime Minister Dr. Abiy in Ethiopia. I think those 
relationships with Senator Inhofe and us as Members of Congress 
can be sustained long term. He has been doing it for over 25 
years, but I think many times they are much more valuable, even 
in those who have stayed some time, as well as the mil-to-mil 
relationships.
    All that being said, I guess now I am going to try to get 
to a question. First of all, General Votel, thank you for your 
leadership of my 155th BCT [Brigade Combat Team], my old 
brigade in Operation Spartan Shield, and my 184th ESC 
[Expeditionary Sustainment Command], which are currently 
deployed and doing logistics missions over there.
    General Votel and General Waldhauser, after I ask this 
question, I want you to respond what we can do better with the 
State Partnership Program in Africa. But Mississippi has a 
State partnership with Uzbekistan. We have made great, great 
strides there. As a matter of fact, almost every time I go, I 
meet with the President of Uzbekistan and all of their cabinet.
    General Votel, how valuable are those in the negotiations 
when we are talking about negotiating with the Taliban or 
logistics contracts? How valuable is that State Partnership 
Program?
    General Votel. Across the region, Congressman, State 
Partnership Program is a diamond for us, frankly. And it is 
highly sought after by partners across the region. It not only 
augments the things that we do with the Active forces and the 
other rotational forces, as you highlighted, that come into the 
region, but more importantly, it provides a long-term sustained 
relationship with these countries.
    As you have experienced in Uzbekistan, I know we recently 
had the minister of defense visit your State for an exercise 
here. Thank you for hosting him. We cannot replace these types 
of relationships. This is absolutely vital to the things we are 
doing.
    Mr. Kelly. And, General Waldhauser, I think there are some 
opportunities in Africa to sustain long-term relationships. Do 
we have good partnership programs or is there opportunity 
there?
    General Waldhauser. Congressman, I could take the rest of 
the time and really the rest of the day up till noon and beyond 
to talk about the value of these programs. Let me just give you 
one quick example. We have 13 State Partnership Programs in the 
continent. We appreciate the funding that comes from them, and 
we would certainly ask for more there.
    Recently, we had an exercise in Burkina Faso. There have 
been some issues there as to the uptick in attacks and whatnot. 
And just recently here in January, the District of Columbia, 
DC, just signed a State Partnership Program with Burkina Faso. 
So on one hand, you could say that are we doing enough there? 
But this is another tool in the tool kit for long-term 
continuity with relationship building and so forth in an area 
where there is a counterterrorism issue. This is a big plus for 
us. I can't say enough about the State Partnership Program in 
AFRICOM.
    Mr. Kelly. And, finally, I guess this is just a comment. 
Ms. Wheelbarger, you can comment if there is time left. But I 
don't have a problem with negotiating with the Taliban or any 
other. You know, as we just saw our President do in North 
Korea, it is okay to have a meeting and to walk away with that 
meeting if your objectives are not achieved. It is not okay not 
to ever have a meeting, because I can tell you, you can never 
reach consensus if you are not talking.
    And so I think we have a lot of opportunity. I am 
skeptical, just like everyone else, General Votel, but I know 
we also have Uzbekistan involved in that, I know Pakistan is 
involved in that. I know there are a lot of people involved in 
the peace process there. And I am quite confident that our 
President and our military and our State Department will walk 
away if we don't get the conditions met that we need to for 
peace, but we have to talk to get the peace.
    And if you could comment very briefly, Ms. Wheelbarger.
    Ms. Wheelbarger. Sure. I will just briefly say long-term 
insurgencies mostly need to end by reconciliation; that is sort 
of the history of these kind of conflicts. And I also agree 
that the military, both U.S. military, but in conjunction with 
our partners on the ground will continue the military pressure 
during these talks.
    The Chairman. I completely agree with Mr. Kelly's 
assessment that we do need to talk. That is the only way to get 
there.
    Ms. Houlahan.
    Ms. Houlahan. Thank you to the chairman. And thank you to 
the panel for coming.
    In addition to sitting on the Armed Services, I also sit in 
Foreign Affairs in Africa and the Asia Subcommittees. And in 
the Africa Subcommittee, human rights is a center area of that. 
And it has been lovely to also hear about China in this 
conversation too.
    So my question is for General Waldhauser. I was wondering 
if we could talk a little bit about the importance of 
supporting women and particularly the impact that they have on 
bolstering economies, which is one of the best ways that we 
have to combat VEOs [violent extremist organizations]. And as 
we continue to provide support to our African partners to 
combat VEOs, are there members of our current Multinational 
Joint Task Force that have not perhaps passed the Leahy vetting 
or who have raised human rights concerns, especially as they 
relate to women and girls?
    General Waldhauser. Thank you for the question. Let me just 
talk real quick about the women, peace, and security initiative 
that we have in AFRICOM and one of the things that I think we 
do very well. And I will just give you several examples. So 
over the past couple of years, we have introduced women from 
the military in the communications field across the continent 
through various exercise engagements. And since we have 
emphasized that, we have noticed the numbers of women who 
participate in that particular event has grown.
    We also do an intelligence assessment and training for the 
women of intelligence branches around the continent. That 
number has grown. We have a leadership that we run out of 
AFRICOM every year. It is a small group, around 50 or 60, but 
we take them around the country to various bases and they talk 
with various leaders, and we promote leadership for women in a 
small way, but we think a highly effective way.
    And here recently, we've had the operation I mentioned in 
Burkina Faso, it is a special operations operation where we 
have brought women together to have conferences, discuss their 
way ahead, and try to get them and highlight their visibility 
for the military. So we take that seriously, and I am very 
proud of our women and peace program.
    With regards to the Leahy vetting, look, one of the things 
that we do with all of our training on the African continent is 
this whole issue of battlefield ethics, law of war compliance, 
and the like. And even though, you know, we run into issues 
every once in a while, we maintain that this is a big part of 
how we train. And we make it very clear to these governments 
that if there is violations or allegations of violations, that 
they have to look at them for investigation and be transparent 
with what they do.
    So on one hand, the question of Leahy vetting, yes, 
sometimes, you know, there are some issues we have to work 
around because of whole units for one individual. But in the 
main on the African continent, we need to maintain that because 
the human rights piece is a big part of how we train, and we 
just have to try to perhaps streamline some of the Leahy 
issues, but we can't walk away from that.
    Ms. Houlahan. Sir, are there curing processes or curing 
timelines if you do see some sort of violation that--I 
understand that you can't help if you are not there. Is there 
any sort of process that is codified that helps with that?
    General Waldhauser. I would have to take that for the 
record, ma'am.
    [The information referred to can be found in the Appendix 
on page 155.]
    Ms. Houlahan. Thank you. My next question is also for you. 
And I read in your written statement that Niger remains very 
unstable and that you are worried about that because of the 
youth, the age of--that is a large part of the country. And my 
question is, you also seem to indicate that the people who you 
were withdrawing in the 10 percent reduction were 
counterterrorism related. Is that true? Doesn't that provide 
some sort of angst on your part that you have got this sort of 
unstable, very young nation-state and we are withdrawing the 
very people who may be helpful if there is some sort of VEO 
activity there?
    General Waldhauser. So I don't want to get into specific 
countries and specific numbers, but the short answer to your 
question is yes. We have to take a look at where we optimize. 
And as I tried to indicate previously, for the first tranche, 
we have taken individuals from locations where they have been 
training for quite some time and those units are on their own. 
And so, yes, you know, every country, especially in Western 
Africa, where we have bilateral agreements and where we train 
with them, we are concerned. But we understand the intent, and 
so far, there has been minimal impact. And if we continue to 
work with our partners, primarily the French in the west, and 
we watch, if the groups grow, we may have to revisit some of 
these decisions.
    Ms. Houlahan. Thank you, and with my last 50 seconds, my 
last question is also for you, which has to do with Congo and 
the most recent Ebola outbreak. We have had about 550, 560 
deaths so far and 800 people who have fallen ill again. And I 
just wanted to ask you sort of to assess the biosecurity 
threats in the area and whether or not you feel as though we 
are doing enough or the right things to build partnerships 
across the African partners that we have, and whether or not 
you think you are appropriately staffed in that particular 
area, and how you are working with USAID and the State 
Department to make sure we don't all get befelled by a 
pandemic.
    General Waldhauser. So I am looking at the time countdown 
and I am counting the questions and trying to--the Democratic 
Republic of the Congo is a very, very complex place right now. 
They just had a reelection. Joseph Kabila, finally after a long 
time, is gone.
    The issue on the Ebola crisis in the east is one of the 
most remote parts of the African continent. There are numerous 
violent extremist organizations, groups there. That is one of 
the problems, it is one of the threats. And we have been asked 
to look at what it would take security-wise by the State 
Department if we upped our footprint, and we have done that.
    I would just finally say just for perspective, when the big 
Ebola outbreak took place several years ago, 28,000-plus cases, 
11,000-plus died. So as you said, about 900 cases thus far, 
600, 550 or so died. A key has been vaccinations. Over 70- to 
80,000 have been vaccinated. But the security environment there 
is very difficult, and that is what makes this one a particular 
challenge and a concern.
    The Chairman. Thank you.
    We are going to stretch a little and try to get the last 
few people in here, so we probably won't start the classified 
until 12:15. But the last--if the last few people can help out 
at all with any time there, it would be appreciated.
    Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman.
    I would like to follow up on the previous lines of 
questions regarding the future of Afghanistan. Like many of my 
colleagues, I am deeply concerned about the ongoing talks with 
the Taliban. And last month, I also attended the Munich 
Security Conference with some of the members here. And we had 
the opportunity to meet with President Ghani, who made it very 
clear that he does not respect the validity of these talks, 
considering the fact that the democratically elected government 
is completely excluded from these talks.
    So my question for General Votel is, I share that concern 
that the democratically elected government is not a part of 
these negotiations. And at the same time, we are heading 
towards presidential elections in Afghanistan. So how do the 
ongoing talks impact the overall legitimacy of the upcoming 
elections and the overall stability as we head into the 
upcoming elections?
    General Votel. Well, I think certainly the fact that there 
is an upcoming election is a factor in the overall situation 
right at this particular point. So, you know, I can't dispute 
the fact that that is an aspect of this. But, Congresswoman, I 
am not orchestrating the talks that Ambassador Khalilzad is 
doing. We speak with him obviously very regularly. We support 
him as closely as we can. It is my observation, from my close 
discussions with him, that he is in fact consulting with 
President Ghani on a regular basis, keeping him well informed, 
and that the actual initiation of these discussions was done 
with President Ghani's knowledge and support.
    So I--we are--he is continuing to do that and he continues 
to do that throughout this process. We recognize that the 
discussions and the negotiations ultimately have to be Afghan-
to-Afghan discussions, and that is what Ambassador Khalilzad is 
focused on at this particular point.
    Ms. Stefanik. I appreciate that, General Votel, but 
President Ghani's message to us was crystal clear, that not 
having the democratically elected government have a seat at the 
table during the negotiations nullifies how they could come to 
a positive outcome. So I just wanted to share my concern, 
particularly as it relates to the legitimacy of the upcoming 
elections and how we are potentially undermining that by 
engaging in these talks with the Taliban.
    My next question is also for you, General Votel. You talked 
about shrinking the physical caliphate to less than 1 square 
mile, which is an enormous achievement. Can you talk about this 
next phase that as ISIS fighters go underground, you said, 
quote, ''They are unrepentant, unbroken, and they are still 
deeply radicalized.'' What does that next phase look like from 
your perspective?
    General Votel. This will look very much like an insurgency, 
meaning that what we will see is we will see low-level attacks. 
We will see assassinations, we will see IED [improvised 
explosive device] attacks, we will see ambush-type things as 
they begin to emerge from this. So therefore, what our focus 
has to be is working with our partners on the ground, as we are 
doing in--fairly effectively in Iraq right now, is working with 
our partners on the ground. We are going to have to keep 
pressure on this. Our intelligence capabilities will continue 
to be very, very important in feeding their operations. Our 
train, advise, assist, our enabling capabilities on the ground 
will be very, very important to this.
    So what we are attempting to do is prevent those things 
from disrupting the other stability operations that we are 
trying to conduct with local governance, local security forces.
    Ms. Stefanik. Thank you.
    And, General Waldhauser, I wanted to follow up on your 
opening statement. What I noticed was absent is lessons learned 
regarding the fateful attack in Niger that took place in 
October 2017. How has USAFRICOM, along with interagency and by, 
with, and through partnerships, what have we learned? How have 
we updated our intel collection, how are we making sure that 
our operators have access to the most up-to-date, accurate 
exquisite intel possible? And I also wanted to ask, when can we 
expect to see the report in section 1276 of the fiscal year 
2019 NDAA [National Defense Authorization Act]?
    General Waldhauser. So first of all, Congresswoman, there 
has been many lessons learned and changes to procedures since 
the Niger incident awhile back. And at the tactical level, 
which I won't go into in great detail, I can assure you that 
minimum force, reaction times for MEDEVAC [medical evacuation], 
standard procedures for how orders are issued and who approves 
those orders, those have all been really dealt with and taken 
care of at the component level, and those are all in place. The 
investigation itself had 23 findings, 19 of which required 
action; 7 of those were work for AFRICOM, the others were for 
the Army and for USSOCOM [U.S. Special Operations Command].
    The items that AFRICOM had, as an example, would be 
formalizing memorandums of agreement with the French for 
MEDEVAC, which we have done; updating the number of blue force 
trackers, for example, that troops have on the ground and those 
type of things. So for the AFRICOM perspective, all the 
tactical items which weren't part of the investigation but 
needed to be fixed, those have been taken care of, and we can 
talk in closed session if you want more detail. And as far as 
the investigation goes, we are good.
    Ms. Stefanik. Thank you.
    The Chairman. We can talk more. A lot of this is better in 
a closed session. We can talk more when we get upstairs.
    Ms. Stefanik. Thank you.
    The Chairman. Mr. Cisneros.
    Mr. Cisneros. Thank you, Mr. Chairman. Thank you all for 
being here today, and thank you for your service to our 
country.
    I will keep this brief, but, you know, since the seventies, 
spending for military and civilian tools of national security 
have ebbed and flowed; during the eighties, they both went up; 
during the nineties, they both went down. Former Secretary of 
Defense James Mattis said, if you don't fund the State 
Department fully, then I have to buy more ammunition 
ultimately. You both have been on the record as saying how 
important diplomatic relations are and humanitarian aid are to 
national security.
    With the budget coming out and we kind of expecting maybe 
another cut in both in the State Department, USAID, oversees 
contingency operations, I mean, would you both agree--or all of 
you agree that reduced resources for the State Department and 
USAID will have an impact on national security in your regions?
    General Waldhauser. Absolutely, yes.
    General Votel. Yes, I would absolutely agree, Congressman.
    Mr. Cisneros. Okay. So by failing to address like famine, 
disease, humanitarian catastrophes, education, whether it be 
Syria or Niger, Yemen, anywhere in your regions, as these 
resources are cut, what kind of impact is that going to have on 
national security in your regions?
    General Waldhauser. Well, Congressman, I think first of all 
we have to understand the global effort in some of these areas, 
the global NGO, nongovernmental organizational effort that 
really have done a good job. So in places like Somalia, for 
example, where this year, food insecurity is somewhere around 
4.2 million people, we have offered assistance to the NGOs, for 
example, logistical, even intelligence, but for the most part, 
they have learned a lot of lessons, staged a lot of logistical 
support, and they are dealing with that situation.
    Now, with regard to the U.S. specifically though, I mean, 
our engagement and our involvement needs to be maintained, 
because there is like 12.5 million displaced persons on the 
African continent, which causes security issues and challenges 
for the governments to have to deal with them from a fiscal 
perspective.
    General Votel. Congressman, I would agree with General 
Waldhauser on this. I think our involvement in this continues 
to be extraordinarily important. As we look and clear through 
areas as we conduct our counterterrorism operations, such as we 
are doing against ISIS right now, the resources that come along 
with some of the stability aspects that must always follow 
these combat operations we are doing, are absolutely essential 
to bring people back into their communities, to start standing 
up the essential services, and to give the local governance, 
local security an opportunity to begin to reestablish life in 
these areas.
    So I would agree this is absolutely essential and we have 
to stay engaged in this.
    Mr. Cisneros. So just to follow up on that. As you have 
kind of talked about how the Chinese and the Russians are kind 
of filling the void diplomatically in some of these regions. 
Are they filling the void humanitarian as we cut humanitarian 
aid or are they kind of picking up their humanitarian efforts 
in order to build better relationships with these foreign 
governments?
    General Waldhauser. To a certain degree, yes. I mean, they 
have got about 2,000 U.N. peacekeepers. They have tried to 
insert themselves. I don't say that in a negative way, but they 
have tried to contribute to the Ebola crisis we talked about in 
the DRC [Democratic Republic of the Congo]. They want to become 
a leader in that particular medical technology. They have made, 
you know, strides in that area and, you know, at the end of the 
day, that is not bad.
    I mean, there are places certainly on the African continent 
where, you know, we have to cooperate with the Chinese, but 
there are times we have to confront and also compete with them. 
But when they build infrastructure, if they contribute to, you 
know, vaccinations and the Ebola crisis and so forth, that is 
not necessarily bad; it is actually helpful.
    Mr. Cisneros. I yield back my time.
    The Chairman. Thank you.
    Mr. Kim.
    Mr. Kim. Thank you so much for coming out here and 
answering our questions. I wanted to address General Votel. 
First of all, I just want to echo the comments of a lot of my 
colleagues and just thanking you for your service. As someone 
who has been working this space before, I know we are indebted 
as a Nation for what you have done and the great work that you 
have done over the years.
    I wanted to follow up on something you said earlier. You 
were talking about how a lot of the efforts that we are 
engaging now in Syria and in Iraq, in particular, which is what 
I am focused on with this question line, is about now shifting 
towards dealing with an insurgency. That a lot of the 
territorial land held by ISIS has been taken back. We are in 
some ways changing the mission in terms of what we are trying 
to be doing now. And my question to you is just trying to get 
your honest assessments of where the Iraqi security forces are 
in terms of that.
    You know, we have been working so much with this by, with, 
and through, and I am just trying to get a sense of what is 
different now in 2019 compared to 2013, specifically in terms 
of how they are ready to handle this newer mission of averting 
back to dealing with an insurgency.
    General Votel. Thank you, Congressman. From our 
perspective, we don't look at this as a change of mission. Our 
mission still is, at the invitation of the Government of Iraq, 
to assist them in defeating ISIS. So from our perspective, we 
look at it very much the same. My assessment of the Iraqi 
security forces right now is that they are doing a pretty good 
job of keeping pressure on the remnants of ISIS that exist in 
Iraq. In some cases, they are doing this unilaterally, and in 
other cases, they are doing this with our assistance.
    Each of their units across the country have different 
levels of readiness and different levels of capability, and we 
are continuing to work to raise those to a higher standard so 
they can be self-sustaining. But they are continuing to do 
that. What is different, I think, is that they have been, from 
2013, 2014, whatnot, they have been well supported by their 
civilian government. The current Iraqi leadership is very, very 
strong supporters of their military. The former prime minister, 
Prime Minister Abadi, was an extraordinary wartime leader, in 
my opinion, and he provided exceptional support to them. I 
think the military leaders saw this. They saw the necessity of 
the situation, and they rallied behind the coalition support 
that we provided to them and rose to the occasion. Good leaders 
emerged on the Iraqi side that helped them orchestrate this 
campaign, and we are continuing to see that today.
    They certainly have more that needs to be done. It needs to 
be a more inclusive force, it needs to include more Sunnis, it 
needs to include more Kurds in it, and we are working towards 
that. We are going to have to address popular mobilization 
forces, these elements that are part of the security forces as 
well. But I am very confident in the current military 
leadership that we see in Iraq in this, again, moving in the 
right direction.
    Mr. Kim. That is right. I share a lot of those concerns 
going forward about how we can do this and make sure that the 
skills that we have been building up aren't going to atrophy as 
we start to move on. And as we have seen before, we have 
certainly seen a lot of success with the counterterrorism 
service and others in terms of going in, being able to 
penetrate ISIS defenses, but we have also seen the difficulties 
of what happened in 2013 and 2014 when the Iraqi security 
forces were asked to hold onto territory and what is their 
ability to hold. And that is where I am just trying to delve 
off of.
    Just one last question here. I know that, you know, in your 
past work you have done a lot with the Counter Terrorism 
Service in Iraq, and I know that they were such a critical 
force there that had gone through a lot over the last couple of 
years, in terms what was asked of them, in terms of going 
through some very difficult circumstance. Specifically with 
that organization, the CTS, what is their current capacity? And 
how crucial are they in this now mission--again, I agree with 
you it is not a changing mission, but certainly a focus more on 
hold rather than the other components. How crucial is the CTS 
in maintaining that?
    General Votel. CTS remains extraordinarily critical in 
terms of--and it is their desire and our support to that desire 
to return the CTS to their more traditional missions of 
counterterrorism operations, and that is what we are working 
on. So we stayed with the CTS when we left in 2011. That was 
important. And that was a reliable force, and they carried the 
heavy load over the campaign. And as we move in the future, we 
have to sustain that, but we also have to stay with the Iraqi 
security forces as well. The Iraqi Army can be the bulwark 
against extremism in this country, and we need to support them.
    Mr. Kim. Well, I certainly hope so. I will do everything I 
can from this angle to be able to support those missions.
    The Chairman. Thank you very much.
    Ranking member.
    Mr. Thornberry. A major focus for both parties and the 
administration in the last 2 years has been to repair the 
readiness of our forces. I had one of your fellow combatant 
commanders tell me recently that he can already tell a 
difference in the forces that are being rotated through his 
command. I don't know if it applies so much to CENTCOM because 
you-all have been the priority theater for 17 years. But my 
question to each of you is, can you at this point tell the 
difference yet in the readiness of the forces that are rotated 
through your commands?
    General Votel. Congressman, from our perspective, I think 
we certainly can. As you know, we have been dependent upon the 
services to provide us well-trained forces, and we have been 
the lucky recipients of that for a long period of time. So I 
remain very, very grateful for that.
    I would highlight one thing. The Army's investment in 
security force assistance brigades I think is a good example of 
how our services are really supporting us in the way that we 
need. This is an organization that is specifically designed to 
help with the by, with, and through approach that we are 
applying so effectively on the ground in a number of areas. And 
so to me, I think the services, my service in particular in 
this case, I think is doing an excellent job of providing us 
the capabilities that we need to pursue these missions.
    Mr. Thornberry. And just to emphasize, you can tell the 
readiness level is improving already?
    General Votel. It has always been uniformly high in 
CENTCOM, and so it is certainly sustained. And I have no 
concerns about any of the forces that are coming into the 
CENTCOM area of responsibility.
    Mr. Thornberry. General Waldhauser, is it getting better 
yet?
    General Waldhauser. Congressman, a little bit more nuance, 
I think, for AFRICOM, and that is, I would say that the special 
operations forces that we have that are engaged in the kinetic 
activities are as good as they ever have been. Their readiness 
has been always good and continues to be so.
    I would just say a quick point on the SFAB [security force 
assistance brigade] that General Votel mentioned. We have--we 
would have a lot of work for them if we had one assigned to 
AFRICOM. There is plenty of things they could do to contribute.
    And finally, I would just say that also in AFRICOM, we have 
locations with ranges and so forth that will allow readiness to 
be maintained and even improved, and we would like to sell that 
to the services too. Sometimes they think that perhaps on the 
African continent they will lose readiness, but we always like 
to say that they can gain--maintain and even gain readiness at 
some of the places where they could train.
    Mr. Thornberry. Thank you.
    The Chairman. We are over time, but, Mr. Gallego, I will 
yield to you. We will have to do it quickly. Got to get 
upstairs for the classified session. When we are done here, we 
will move up.
    Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chair.
    General Waldhauser, last week, The New York Times published 
an account of an Operation Sudan in 2013 that suffered from 
problems eerily similar to what we saw in the Niger ambush of 
2017. I personally as a Marine know what it is like to have bad 
leadership and bad equipment but still be required to go into 
combat several times. I can tell you, General, it is an awful 
feeling.
    So please tell me, General, what has AFRICOM or DOD done to 
change the way they do business so that we don't see more Niger 
ambush situations or Sudan or any number of unreported 
incidents in your command over the past several years that are 
no longer, quote/unquote, ``situation normal''?
    General Waldhauser. So, Congressman, as indicated earlier, 
some of the things that we have done since Niger incident have 
to do with the tactical actions and procedures on the ground. 
And minimum force requirements, timelines for MEDEVAC and 
CASEVAC [casualty evacuation] coordination efforts, weather and 
so forth, overhead armed ISR where it is applicable, ISR 
together with that, and then when you tie in with what we have 
been doing recently, after a long time of working with these 
units, we are now advising them at a higher level where we do 
mostly at the battalion level and to a large degree remotely. 
We have the ability to do the same thing, and so those are some 
of the things we have changed since.
    Mr. Gallego. Thank you, General. And I am aware of some of 
that. One of the things that I am not aware of is who has been 
held responsible for this epic failure that had cost some men 
our lives. So far what I have read is that the Army brass is 
basically trying to blame junior officers both before and after 
the Niger ambush. So who is being held responsible? You are the 
AFRICOM commander. Who is responsible for these failures? And 
it is not junior officers.
    General Waldhauser. So, Congressman, the issue of the 
investigation right now lies with the Secretary of Defense. The 
issue of accountability and awards and so forth come from 
SOCOM. I know--I am not privy to those discussions, but I know 
they have been ongoing. But perhaps, Katie, I don't know from 
the OSD [Office of the Secretary of Defense] perspective the 
status. But I would just say, again, this--the investigation 
completed and the actions----
    Mr. Gallego. How much longer is the investigation going to 
take place? This is almost 2 years now.
    Ms. Wheelbarger. I will just add that the report and that 
very question on the responsibilities and the awards is with 
Secretary of Defense. He takes this very seriously. Obviously, 
we have had a transition of authority within the--having a new 
Secretary. He is reviewing this carefully, and we are expecting 
you to get that final report here shortly, which will answer 
that very question.
    Mr. Gallego. And once that report comes out, you are going 
to actually go hold the DOD personnel, whether they be generals 
or below, responsible for this disaster, correct?
    Ms. Wheelbarger. That is a decision with the Secretary at 
this moment, and he will be able to provide you that 
information as soon as he finalizes his decision.
    Mr. Gallego. Okay. Ms. Wheelbarger, section 1212 of last 
year's NDAA required a review of advise, assist, and accompany 
missions from the Under Secretary of Defense for Policy. There 
were clearly issues about these missions as laid bare by the 
ambush. So why haven't you provided this report to us?
    Ms. Wheelbarger. I believe this report is tied up in 
finally having the Secretary's complete decisions on all of the 
recommendations going forward. And as soon as he does, we will 
provide the report.
    Mr. Gallego. Okay. I would also like to know what is the--
and it could be either General Waldhauser or General 
Wheelbarger, or Ms. Wheelbarger, I apologize, what is the 
status of providing redacted reports of the Niger investigation 
to the families of the deceased U.S. soldiers?
    Ms. Wheelbarger. My understanding is all of the reporting 
requirements are--will be released as soon as--including the 
redacted reports to the families as soon as the final decisions 
that are outstanding are made by the Secretary.
    Mr. Gallego. So that is including the autopsy reports?
    Ms. Wheelbarger. I would have to take that back.
    General Waldhauser. Well, my understanding is that once the 
Secretary signs off on this, then those redacted versions will 
go to the family first, just like we did at the outset of this. 
As you may recall, the team went to each family and spent hours 
with them to give them the first look at this, and I am sure it 
has been taking a long time, and I know that they have had a 
lot to process and probably have more questions. But it is my 
understanding that----
    Mr. Gallego. General, without a doubt that the family has 
actually been able to process this, I think the problem that we 
have is we actually can't process what actually occurred 
because we are not getting a full report. I think that is my 
dissatisfaction right now, because there are currently, you 
know, operations probably happening in AFRICOM, and I have zero 
doubt that it is actually being fully changed because I don't 
know who actually was responsible for this major mess-up. And 
it scares me that the DOD is at this point still hiding this 
information, and it has been 2 years.
    So I hope that that will be coming up soon, because I think 
then we will have to take extraordinary measures to actually 
get that to happen.
    I yield back my time.
    The Chairman. Thank you.
    Just quickly at the end, the only comment I will make, I 
know a lot of people have raised concerns about Afghanistan, 
and no matter which path you take, there are going to be 
concerns about Afghanistan. But trying to find a negotiated 
settlement is the best way forward, without question. We don't 
presume what that settlement is going to be, but I for one am 
supportive of the negotiations and the discussion you are 
having, because ultimately, our goal is to reduce our footprint 
in Afghanistan, reduce the risk, you know.
    Men and women in our Armed Forces lives are at risk in 
Afghanistan every day right now. To the extent that we can 
shift that responsibility to people in the region, I am all for 
it. It is not going to be easy. It is a very, very difficult 
part of the world, as you know far, far better than I do, but 
it is the direction we have to go if we are going to get to the 
outcome that we want.
    So I appreciate those efforts, and we will certainly stay 
in touch with you on the details. And then with that, take a 
brief break, and we will reconvene upstairs in a few minutes.
    [Whereupon, at 12:18 p.m., the committee proceeded in 
closed session.]


      
=======================================================================



                            A P P E N D I X

                             March 7, 2019

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 7, 2019

=======================================================================

      

      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 7, 2019

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MS. HOULAHAN

    General Waldhauser. The DOD Leahy Law, 10 USC 362 (a)(1), provides 
that DOD appropriated funds may not be used for any training, 
equipment, or other assistance for the members of a unit of a foreign 
security force if the Secretary of Defense has credible information 
that the unit has committed a gross violation of human rights. Further, 
10 USC 362 (b) permits an exception in cases where the Secretary of 
Defense, in consultation with the Security of State, determines that 
the government of such country ``has taken all necessary corrective 
steps.'' More specifically, this exception is known as remediation and 
is akin to a curative process.
    Pursuant to Joint DOD and DOS Policy on Remediation and the 
Resumption of Assistance under the Leahy Laws, remediation measures 
will focus on the primary three components of investigation; judicial 
or administrative adjudication, as appropriate; and sentencing or 
comparable administrative actions, as appropriate. No specific 
remediation or curative timeline exists, but the DOD must provide 
notification to Congress not more than 15 days after the use of this 
exception.
    During Fiscal Year 2018, U.S. Africa Command assisted Chiefs of 
U.S. Missions prepare remediation cases for units accused of gross 
violations of human rights. Though none of these specific cases were 
approved by the Department of State, we will continued to support 
remediation efforts when warranted. (U) The DOD Leahy Law, 10 USC 362 
(a)(1), provides that DOD appropriated funds may not be used for any 
training, equipment, or other assistance for the members of a unit of a 
foreign security force if the Secretary of Defense has credible 
information that the unit has committed a gross violation of human 
rights. Further, 10 USC 362 (b) permits an exception in cases where the 
Secretary of Defense, in consultation with the Security of State, 
determines that the government of such country ``has taken all 
necessary corrective steps.'' More specifically, this exception is 
known as remediation and is akin to a curative process.
    Pursuant to Joint DOD and DOS Policy on Remediation and the 
Resumption of Assistance under the Leahy Laws, remediation measures 
will focus on the primary three components of investigation; judicial 
or administrative adjudication, as appropriate; and sentencing or 
comparable administrative actions, as appropriate. No specific 
remediation or curative timeline exists, but the DOD must provide 
notification to Congress not more than 15 days after the use of this 
exception.
    During Fiscal Year 2018, U.S. Africa Command assisted Chiefs of 
U.S. Missions prepare remediation cases for units accused of gross 
violations of human rights. Though none of these specific cases were 
approved by the Department of State, we will continued to support 
remediation efforts when warranted.   [See page 39.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MS. HAALAND
    Ms. Wheelbarger. The National Security Council has taken the U.S. 
Government lead on developing the U.S. National Strategy on Women, 
Peace, and Security (WPS), as required by the 2017 WPS Act. DOD has 
provided input to the draft WPS strategy and is currently working with 
our interagency counterparts to finalize the document. Once the WPS 
Strategy is completed, the DOD is required to draft a WPS 
implementation plan for the Department within 120 days. In addition, we 
are developing a plan, using the $4M of funding that we received in the 
FY19 Defense Appropriation Act, to place gender advisors within each 
geographic combatant command, U.S. Special Operations Command, the 
Joint Staff, and OSD Policy.   [See page 18.]



      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 7, 2019

=======================================================================

      

                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. General Waldhauser testified that 150 special 
operations personnel and 150 conventional force personnel were removed 
from AFRICOM as a result of the optimization that has taken place over 
the past 18 months. What missions were scaled back, curtailed, rendered 
inactive, transitioned to episodic engagement, transitioned from 
special operations forces to conventional forces or transitioned in 
authority (i.e. 127e transitioned to 333) to accomplish the manpower 
optimization. Please note specifically where these manpower changes 
occurred, over what timeline, with what notice (if any) to the partner 
force and to what extent the Department of State played a role in the 
decision.
    General Waldhauser. [The information is classified and retained in 
the committee files.]
    Mr. Langevin. General Waldhauser testified that he has not been 
ordered to execute the second ``tranche'' of this plan by removing 300 
more personnel from the AFRICOM area of responsibility. If the second 
``tranche'' of this is ordered, what missions will be scaled back, 
curtailed, rendered inactive, transitioned to episodic engagement, 
transitioned from special operations forces to conventional forces or 
transitioned in authority (i.e. 127e transitioned to 333) to accomplish 
the manpower reduction requirement. Please note specifically where 
these manpower changes will occur, over what timeline, with what notice 
(if any) to the partner force and to what extent the Department of 
State will play a role in the decision to reduce forces.
    General Waldhauser. [The information is for official use only and 
retained in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SPEIER
    Ms. Speier. What is the DOD doing to help Egypt secure and foster 
economic development in the Sinai?
    Ms. Wheelbarger. DOD supports the State Department to secure and 
foster economic development in the Sinai along three lines of effort: 
(1) training, equipping, and advising the Egyptian Armed Forces in 
counter-terrorism to foster the security necessary for economic 
development; (2) engaging within the military to military relationship 
to prioritize population security and Ministry of Defense support to 
economic development as one focus of their campaign; and (3) providing 
logistics and equipment support to economic development projects led by 
the State Department and USAID.
    Ms. Speier. What is the DOD doing to help Egypt secure and foster 
economic development in the Sinai?
    General Votel. I would defer to Department of State to answer this 
question.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. GALLEGO
    Mr. Gallego. Despite repeated requests, the Armed Services 
Committee has not been provided access to execute orders (EXORDS) 
necessary for oversight purposes following the Niger ambush in 2017. 
Assistant Secretary West committed to Chairman Smith and Mr. Larsen at 
the counterterrorism hearing several weeks ago that DOD would resolve 
this issue. When and in what manner will DOD allow the committee access 
to EXORDS in question?
    Ms. Wheelbarger. In an effort to remain completely transparent 
regarding the investigation, Members of Congress and Professional Staff 
Members were granted access to a reading room which contained all 
applicable Execute Orders (EXORDS) associated with the Niger 
investigation report. These included the Joint Staff Counterterrorism 
EXORD, the Juniper Shield EXORD, the North West Africa EXORD, and the 
AQIM EXORD. The Secretary of Defense is currently considering policies 
and protocols to respond to the Committees' request to view additional 
DOD EXORDs.
    Mr. Gallego. How are allies and partners being included in 
decisions regarding force presence and posture in Syria following 
recent announcements that U.S. presence in the country would sunset?
    Ms. Wheelbarger. The DOD remains actively and continuously engaged 
with allies and partners on decisions regarding force presence and 
posture in Syria as we transition from liberating territory to 
addressing the threat from ISIS as a clandestine insurgency. Since 
January, the Acting Secretary of Defense, Under Secretary of Defense 
for Policy, Acting Assistant Secretary of Defense for International 
Security Affairs, and Chairman of the Joint Chiefs of Staff have each 
held in-person multilateral meetings regarding these decisions with 
their Coalition counterparts--meetings that directly informed the 
Acting Secretary of Defense deliberations about a residual U.S. 
presence in Syria. Additionally, these and other senior Defense 
officials have conducted discussions and calls with a broad range of 
Coalition allies and partners directly involved with detailed military 
planning at U.S. Central Command focused on force presence and posture 
in Syria.
    Mr. Gallego. In his announcement that he would declare a national 
emergency at the southern border to build a wall, President Trump said, 
quote: ``We have certain funds being used at the discretion of 
generals'' . . . ``Some of them haven't been allocated yet, and some of 
the generals think this is more important. I was speaking to a couple 
of them--they think this is far more important than what they were 
going to use it for. I said `What were you going to use it for?' I 
won't go into details, but it didn't sound too important to me.''
    General Votel, do you believe that unallocated funds designated for 
USCENTCOM are better spent at the southern border than in USCENTCOM?
    General Votel. The Secretary of Defense and the Chairman of the 
Joint Chiefs of Staff have a responsibility to ensure the defense of 
the United States from threats wherever they may emanate from. That 
said, in a resource constrained environment and with the challenges we 
have historically faced in the CENTCOM AOR I would welcome more 
resources.
    Mr. Gallego. How are allies and partners being included in 
decisions regarding force presence and posture in Syria following 
recent announcements that U.S. presence in the country would sunset?
    General Votel. Our engagement with allies and partners supports 
diplomatic engagements by the President, the Secretary of State, the 
Acting Secretary of Defense, and other senior administration officials. 
The Chairman of the Joint Chiefs has taken a prominent role in engaging 
with his uniformed counterparts from member nations from the Defeat-
ISIS coalition as well as other non-coalition nations. My staff and I 
have held numerous engagements with military leaders and planners from 
interested countries ranging from one-on-one phone conversations to 
multi-nation conferences in order to convey the military situation 
including U.S. posture, threats, risks, and opportunities in northeast 
Syria. We recognize long term success will require working with our 
partners and to that end we coordinate as closely as possible.
    Mr. Gallego. In his announcement that he would declare a national 
emergency at the southern border to build a wall, President Trump said, 
quote: ``We have certain funds being used at the discretion of 
generals'' . . . ``Some of them haven't been allocated yet, and some of 
the generals think this is more important. I was speaking to a couple 
of them--they think this is far more important than what they were 
going to use it for. I said `What were you going to use it for?' I 
won't go into details, but it didn't sound too important to me.''
    General Waldhauser, do you believe that unallocated funds 
designated for USAFRICOM are better spent at the southern border than 
in USAFRICOM?
    General Waldhauser. I am unaware of the discussions between the 
President and other general officers and not in a position to fully 
understand the challenges and risks associated with conditions along 
the United States southern border. While reductions in funding could 
have repercussions to USAFRICOM's mission, it would be difficult to 
weigh the competing requirements without further context on a national 
emergency declaration.
    Mr. Gallego. Do you stand by the Niger Report issued last year as 
written, or are parts in need of review, correction, or retraction?
    General Waldhauser. I stand by my approval of the findings and 
recommendations of the investigating officer, a two-star general 
officer, into the facts and circumstances surrounding the 4 October 
2017 attack in Niger which killed four U.S. service members and four 
partner Nigeriens. The comprehensive Army 15-6 investigation, or Niger 
Report, took three months to assemble by the investigation team and was 
substantiated by testimonials from 143 witnesses, including 37 American 
and Nigerien survivors of the attack. The team analyzed thousands of 
pages of documents and reviewed hundreds of hours of intelligence, 
surveillance, and reconnaissance video. Critical to the thoroughness of 
the report was an investigative survey of the attack site in Tongo 
Tongo by the investigation team, accompanied by a Nigerien soldier who 
survived the attack and the Commander of the Nigerien Response Forces. 
During the survey, the team spoke to villagers and collected evidence 
for forensic analysis which reinforced the facts and circumstances of 
the attack. The investigation had 23 findings, 19 of which required 
action, covering issues of policy, procedures, resources, doctrine, 
training, judgement, and leadership. All of the material was forwarded 
to the Secretary of Defense through the Chairman of the Joint Chiefs of 
Staff, and the Secretary concurred with all findings and 
recommendations.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BROWN
    Mr. Brown. Africa is the intersection of the previous focus of our 
national security strategy, the fight against terrorism, and the new 
priority of our national security strategy, a renewal of great power 
competition with China and Russia. What diplomatic solutions do we need 
in addition to the military and economic initiatives such that we have 
a comprehensive strategy on the continent? How can we improve military 
partnerships with African countries so they view the U.S. as a trusted 
ally? How have we aligned our basing and force structure to address 
both the continuing threat of terrorism and the expanding influence of 
China?
    Ms. Wheelbarger. The U.S. Government strongly supports diplomatic 
solutions to complex international problems. The Department of 
Defense's (DOD) engagements in Africa are in support of the bilateral 
relationships managed by U.S. Embassy Chiefs of Mission. These 
diplomatic relationships play a critical role in strengthening our 
military-to-military relationships on a continent where we have limited 
forward presence. For example, in Somalia, Libya and the Sahel, 
diplomacy and development are critical to progress; military efforts 
alone will not resolve issues there.
    As laid out in the U.S. Strategy for Africa, our primary lines of 
effort are promoting prosperity, strengthening security, and striving 
for stability. Thus the U.S. Government is focused on furthering trade 
and investment, fostering peace and security, and encouraging 
governance and self-reliance. These priorities could not be advanced 
without strong and enduring diplomatic efforts developed by the State 
Department.
    Building trusted military partnerships with African countries is 
the cornerstone of DOD's ``by, with, and through'' approach on the 
continent. Partner forces almost exclusively execute security 
operations, with USAFRICOM acting in a supporting role. The extent to 
which we work with partner forces is based on their operational and 
institutional needs. With all of our African partners, we work to 
achieve shared strategic objectives through cooperative relationships. 
Continued engagement helps to build deep, enduring, and reliable 
military ties.
    One program that highlights these ties is our State Partnership 
Program (SPP) administered by the National Guard Bureau. This program 
is guided by State Department foreign policy goals, and supports U.S. 
Chief of Missions' security cooperation objectives. Through the SPP, 
the National Guard conducts military-to-military engagements that 
leverage whole-of-society relationships and capabilities to facilitate 
broader engagements spanning military, government, economic, and social 
spheres. We currently have SPPs with 14 African countries and are 
seeking to develop more such programs with African countries. 
Partnering with a state allows for continued engagement and enduring, 
without the rotation of regular active duty units.
    Finally, proper alignment of basing and force structure are very 
important to address the threat of terrorism and great power 
competition, as detailed in the National Defense Strategy. Any response 
to crises or conflicts in the region will require adequate access, 
basing, and overflight authorities. To address this, the Department has 
established a network of operating locations across the continent that 
enable required access while employing a light footprint. These 
locations also promote constructive security partnerships with key 
African countries that improve regional security and help keep pressure 
on priority violent extremist organizations. Our posture also provides 
our partners with assurance of our resolve and capacity to help secure 
our shared interests.
    Mr. Brown. DOD spends over $10 billion each year on security sector 
assistance, much of which goes to counterterrorism (about $5 billion is 
Afghanistan funding). In a 2018 report, the Center for Strategic and 
International Studies recommended that the U.S. ``establish a baseline 
assessment of the security partnership before expending resources,'' 
and that those reports should include the partners ability to absorb 
assets, reform political institutions, and their compliance with human 
rights.
    Does CENTCOM conduct such baseline assessments with the ANA? Do you 
have a timeline for achieving particular benchmarks and goals? More 
generally, for all of the forces in your AOR that you partner with, how 
does CENTCOM evaluate the effectiveness of counterterrorism partners 
capability and programs? What are the benchmarks you use to assess 
whether the investment is an appropriate and cost effective use of 
taxpayer funds?
    General Votel. Yes, CENTCOM conducts baseline assessments that 
estimate the operating environment to include Afghan National Defense 
and Security Forces (ANDSF) (which includes the Afghan National Army) 
objective force capabilities to sustain progress along the Roadmap, 
Afghan Security Forces Fund stewardship and strategic and operational 
risks to NATO and Resolute Support objectives. The congressionally 
mandated, Enhancing Security and Stability in Afghanistan 1225 Report, 
is an in-depth Department of Defense assessment of costs associated 
with developing the Afghan security forces and government institutions. 
USCENTCOM supports this assessment through our U.S. Forces-Afghanistan 
component with cost and performance information. USCENTCOM also 
complements the 1225 report with an assessment of Operation Freedom's 
Sentinel. This assessment provides me with a measure of progress of 
achieving military objectives, while building partner capacity, with 
the ANDSF.
    When President Trump announced the South Asia Strategy (SAS) in 
August 2017, this marked a change from a time-based approach 
telegraphing artificial timelines to a conditions-based approach, 
creating the conditions to bring about reconciliation on coalition 
terms. This conditions-based approach allows the United States to 
target realistic, attainable, and measurable strategic objectives. The 
SAS supports the Afghan Security Roadmap, the blueprint to develop 
professional and capable Afghan security forces. This roadmap is not 
anchored to a timeline and is tailored to meet Afghan's security 
capability threshold.
    We assess our Theater Campaign Plan quarterly and annually. Our 
assessments include evaluations of Partner Nations' capabilities to 
address violent extremist organizations and terrorist threats in their 
countries. These assessments include evaluation of progress towards 
objectives detailed in our Security Cooperation Country Plans; every 
country in our AOR has a Security Cooperation Plan, with the exception 
of Iran and Syria. Many of our country plans include specific 
counterterrorism objectives for which we are working with our Partner 
Nations' to build capability and capacity. Additionally, we conduct 
operations assessments of our named operations in Afghanistan and to 
defeat the Islamic State in Syria (ISIS). These operations have 
specific objectives for our by-with-and-through approach to combatting 
terrorism with our partners so we routinely evaluate our progress in 
establishing specific desired conditions that we have for our partners' 
counterterrorism capabilities in these two conflicts.
    We conduct a Theater Campaign Assessment on a quarterly basis, 
which measures progress toward objectives and end states. This 
assessment includes measuring the effectiveness of our operations, 
activities, and investments. One of our end states is: ``USCENTCOM's 
influence with allies and partners is maintained and facilitates by-
with-through operations and training that strengthens counterterrorism 
and conventional military capabilities.'' We assess the four objectives 
for this end state during our quarterly campaign assessment; each 
objective has evaluation metrics which include measures of ``cost and 
return.'' Overall, our campaign assessment is one means by which I 
evaluate execution of our theater strategy to achieve U.S. national 
objectives established in the National Military Strategy, National 
Defense Strategy, and the National Security Strategy. Additionally, for 
Afghanistan, I recently endorsed the Afghan National Defense and 
Security Forces (ANDSF) Plan of Record (APoR) report. The APoR analysis 
provides an estimate of the operating environment in Afghanistan, ANDSF 
objective force capabilities to sustain progress along the ANDSF 
Roadmap, and offers recommendations to better align the Roadmap to 
evolving conditions. An example of this continuous assessment process 
is the review that General Miller is conducting that allows us to 
evaluate the ANDSF from this perspective and make recommendations 
through various mechanisms, such as the 1225 Report and the semi-annual 
NATO Periodic Mission Review.
    Mr. Brown. The Middle East and North Africa (MENA) is the world's 
most water scarce region. MENA is home to 6 percent of the world's 
population, but only 1 percent of the world's freshwater resources, 
according to the World Bank. Seventeen countries in the region fall 
below the water poverty line set by the United Nations, and some 
experts believe that drought played a part in sparking Syria's civil 
war.
    Do you agree that scarce resources can be a flashpoint for violence 
and conflict? Do you agree that the scarcity of water in the Lake Chad 
basin has increased over the last few decades? Do you agree that this 
situation increases the likelihood that an increasing number of U.S. 
troops may be deployed, putting American lives at risk?
    General Waldhauser. The scarcity of natural resources contributes 
to conflict throughout Africa. Lake Chad, which has historically been 
the main artery of commerce in the Lake Chad Basin (LCB) region, has 
progressively declined over the last five decades. To a degree the 
result of poor resource management, Lake Chad's decline has severely 
impacted agro-pastoral communities, who depend on it for food, water, 
and trade, resulting in the displacement of thousands of people from 
the region. This displacement, along with the competition over scarce 
resources, serves as one of many drivers of instability on the African 
continent. USAFRICOM continues to work with the international and 
interagency community to equip our African Partners with available 
resources and security mechanisms to support their efforts to prevent 
conflict and maintain stability.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. KEATING
    Mr. Keating. Earlier this year, the Lead Inspector General put out 
a report that gave a status update on Operation Inherent Resolve that 
report, U.S. Central Command provided the following quote: ``If Sunni 
socio-economic, political, and sectarian grievances are not adequately 
addressed by the national and local governments of Iraq and Syria it is 
very likely that ISIS will have the opportunity to set conditions for 
future resurgence and territorial control.'' The report also goes on to 
say ``Absent sustained counterterrorism pressure, ISIS could likely 
resurge in Syria within six to twelve months.''
    Are you confident Sunni grievances have been addressed or will be 
addressed so that conditions are not set for an ISIS resurgence?
    In terms of ISIS reconstituting its forces, do you expect the bulk 
of ISIS' leadership, including those who head the group's various 
Shura's, to largely remain in Syria and/or Iraq? Or do you anticipate 
those members will flee to other provinces in North Africa or South 
Asia?
    General Votel. [The information is for official use only and 
retained in the committee files.]
    Mr. Keating. General Waldhauser, in your written testimony you 
state that the second emergent challenge in Africa is ``the effect of 
environmental change on African Security.'' You go on to highlight the 
large number of African farmers, the potential for land disputes, poor 
land-use policies, as well as changing weather patterns and rising 
temperatures.
    Could you also speak to the challenges climate change poses to 
Nigeria in particular? John Campbell, former U.S. Ambassador to 
Nigeria, in 2015 and in 2017 stated that Nigeria is of great strategic 
importance to the United States. It has a rapidly growing population of 
200 million, it has Africa's largest economy, is the largest producer 
of oil and gas in Africa, and has contributed to international 
peacekeeping missions in the region. Climate change however raises 
risks for Nigeria, from enhancing drought in the northeast and fueling 
the Boko Haram insurgency; to raising sea levels and displacing 
thousands in Lagos, Nigeria's coastal mega-city and economic 
powerhouse. How are you and your staff incorporating the impact that 
climate change may have on these risks and scenarios in Africa and 
Nigeria in particular?
    General Waldhauser. Factors associated with the changing climate 
heighten Nigeria's existing humanitarian and security challenges. 
Nigeria's rapid population growth, and its reliance on subsistence 
agriculture, increases its vulnerability to climate-related hazards, 
including variable rainfall, drought, desertification, and flooding. 
About 70% of the Nigerian population is engaged in subsistence farming. 
Thus, an extreme climate event such as drought or flooding can have 
devastating effects, often leading to food shortages and the 
displacement of millions of people. These events have regional impacts 
as well. Nigeria is responsible for 70% of West Africa's overall 
agricultural output, with any significant reduction felt throughout the 
region. Greater competition for access to arable land also contributes 
to violence in Nigeria and more broadly, across Africa. In Nigeria, 
this has most prominently featured violence between herders and farmers 
in Nigeria's bread basket, the Middle Belt, where deaths in resource 
conflict have far-outpaced deaths to terrorism.
    The U.S. Agency for International Development (USAID) is the lead 
agency for development initiatives in Africa, and USAFRICOM works in 
support of these efforts. USAID supports agriculture and food security 
programs in Nigeria which take into account the changing climate and 
environmental conditions. USAID programs provide clean water and 
sanitation, increase access to energy, reduce obstacles to trade, and 
improve market access to strengthen the capacity of local groups to 
address violence and mitigate conflict in their communities. 
Additionally, USAID programs target improved governance at the state 
and local levels to enhance the delivery of services (e.g., health, 
education, rule of law, etc.) to the public, thereby addressing many 
underlying grievances easily exploited by extremist or criminal 
networks.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. SHERRILL
    Ms. Sherrill. I understand that Picatinny Arsenal developed the 
only large-scale Howitzer capable of being lifted throughout the 
CENTCOM theatre, the M777A2 towed 155mm Howitzer. It has proven 
invaluable, firing hundreds of thousands of rounds in support of ground 
forces there. Because we never want our troops to have a fair fight, 
and we must hit the enemy before they even see us coming, the Army is 
looking at even greater range Long Range Precision Fires.
    Across the vast area of operations in the CENTCOM AOR, there is a 
clear requirement for both greater range and lethality for our ground 
forces. Please share with the committee what you see as critical 
lethality requirements when it comes to the range of our weapons and 
munitions against our adversaries.
    General Votel. [The information is for official use only and 
retained in the committee files.]
    Ms. Sherrill. I have deep reservations that the damage this 
administration has done to our critical alliances, particularly NATO, 
will have consequences that impact our security interests well outside 
of Europe. The premise of our efforts to train and equip local forces 
to combat terrorism is that they will be step up as we step back. This 
requires both regional partnership and continued support from our NATO 
allies in these vital missions.
    Please describe how our NATO allies are contributing to 
counterterrorism efforts in the CENTCOM area of responsibility, and 
what more can we ask of them in places such as Syria, as we are looking 
to scale down.
    General Votel. Our NATO allies continue to capably support 
Coalition efforts in the USCENTCOM area of responsibility focusing on 
training local forces and supporting counterterrorism efforts against 
ISIS and other terrorist threats in Afghanistan using a ``by, with, and 
through'' approach which emphasizes giving local forces the capability 
to plan and execute their own operations. Under Combined Joint Task 
Force Operation Inherent Resolve and NATO Mission Iraq, as well the 
Resolute Support Mission, our NATO allies currently contribute well 
over 3,000 troops to the Defeat-ISIS mission and 7000 troops to the 
Resolute Support Mission in Afghanistan. Additionally, our NATO allies 
are working with us to develop enduring training plans that will 
continue to sustain the development, professionalism and expertise of 
the Afghani and Iraqi military forces so they can bring and sustain 
security and stability in their respective countries. As we look to 
reduce the U.S. footprint in Syria, we are identifying the critical 
mission sets, training requirements, forces required, and authorities 
necessary to ensure the safety and security of the local population.
    Ms. Sherrill. I come from an area of New Jersey that suffered 
greatly in the 9/11 attacks. While a significant reduction in the 
number of U.S. forces in Afghanistan may be in U.S. national security 
interests, it is critical that the reduction occur in a thoughtful way, 
with careful planning, and in coordination with our allies. We do not 
want Afghanistan to yet again provide safe-haven for terrorists who 
would attack our homeland.
    As the primary U.S. objective for being in Afghanistan is to enable 
a political settlement that creates the conditions for another such 
attack to be much less likely, with the President's abrupt announcement 
to reduce our military presence by half, don't you agree that we are 
significantly damaging our ability to accomplish the mission?
    General Votel. No. While USCENTCOM has not received an order to 
reduce U.S. forces in Afghanistan we are always evaluating the mission 
and the resourcing necessary to accomplish that mission. GEN Miller, in 
his capacity as Commander U.S. Forces Afghanistan, has determined the 
appropriate force level in order to execute his missions (U.S./NATO) 
based upon his assessment of the conditions on the ground. USCENTCOM 
will continue to play a vital role in supporting diplomatic efforts to 
find an Afghan led political settlement to the war in Afghanistan. We 
remain focused on doing all we can to support a political settlement.
    Ms. Sherrill. I have deep reservations that the damage this 
administration has done to our critical alliances, particularly NATO, 
will have consequences that impact our security interests well outside 
of Europe. The premise of our efforts to train and equip local forces 
to combat terrorism is that they will be step up as we step back. This 
requires both regional partnership and continued support from our NATO 
allies in these vital missions.
    Please describe how our NATO allies are contributing to 
counterterrorism efforts in the AFRICOM area of responsibility, and 
what more can we ask of them, particularly in places where we are 
looking to reduce the U.S. military footprint.
    General Waldhauser. USAFRICOM works with NATO, the European Union 
(EU), the African Union (AU), and other Partner Nations to advance U.S. 
national security interests and promote regional security, stability, 
and prosperity. Protection of the NATO southern flank is a key concern 
for the Alliance, and any expanded NATO presence on the continent is 
driven by its member nations. Currently, 22 of the 29 NATO Allies are 
in the EU, and the EU provides close to 3,000 security forces in Mali, 
Central African Republic, and Somalia. EU forces also conduct counter-
piracy off the Horn of Africa and counter-trafficking and migration 
efforts in the Mediterranean through executive operations and training 
missions. NATO is pursuing CT-focused engagements with the AU, namely 
the African Centre for the Study and Research on Terrorism. NATO held 
initial discussions with EU advisors to the G5 Sahel to identifying 
areas where NATO can contribute personnel and expertise.
    More broadly, NATO is developing a comprehensive understanding of 
the situation in the Middle East-North Africa region through political 
engagement and consultation with individual partner countries, as well 
as with regional organizations. Under the Mediterranean Dialogue, 
established by the North Atlantic Council in 1994, which includes 
Algeria, Egypt, Israel, Jordan, Mauritania, Morocco and Tunisia, NATO 
hosts thematic meetings, seminars, and workshops on issues of shared 
interest. Also, NATO is in the process of finalizing a Defense Capacity 
Building (DCB) package for Tunisia to provide support to the Tunisian 
authorities in seven priority areas of cooperation: development of 
special operations forces; force preparation; intelligence capability; 
chemical, biological, radiological and nuclear (CBRN) defense; cyber 
defense; counter-Improvised Explosive Devices; and integrity 
development.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. WALTZ
    Mr. Waltz. What is the status of the search for Jeffrey Woodke and 
what assets have been dedicated to looking for him?
    General Waldhauser. USAFRICOM continues to coordinate with 
USAFRICOM Components, other U.S. Government Agencies and Partner 
Nations to determine the location of American Citizen, Jeffery R. 
Woodke. Mr. Woodke is an American humanitarian worker who was kidnapped 
in October of 2016 in Abalak, Niger. The U.S. Government is aware both 
terrorist and criminal elements operating in the Northern Sahel regions 
of Africa are currently holding several other Western Hostages, to 
include citizens of France, Colombia, Romania, Switzerland, and 
Australia. These terrorist and criminal groups are assessed to present 
a grave threat to both regional stability and to the physical safety of 
Americans and westerners transiting the region.
    The Hostage Recovery Fusion Cell (HRFC) is coordinating interagency 
efforts to safely recover Mr. Woodke. Interagency intelligence analysts 
are vetting information and U.S. Government agencies are following up 
on all leads, while the HRFC continues to access diplomatic efforts in 
collaboration with foreign partners. These efforts represent a whole of 
government approach to recovering Mr. Woodke and mitigating the threat 
of future hostage takings to Americans in the region. Additionally, 
HRFC's Family Engagement Team is in routine communication with Mr. 
Woodke's family. As a caveat, Mr. Woodke's family has consistently 
indicated their desires to avoid discussing or highlighting our 
combined efforts in the public domain over concerns for his safety. Mr. 
Woodke's family has expressed appreciation when we have avoided 
discussing the ongoing recovery efforts in public testimony.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. HAALAND
    Ms. Haaland. The Afghan Independent Human Rights Commission 
(AIHRC), in coordination with the Afghan Ministry of Defense and 
Ministry of Interior, developed an ombudsman program to enable external 
reporting, oversight, and victim support for MoD and MoI female 
employees. As of December of last year, The ombudsman program, although 
developed and planned, has yet to be funded and implemented. Is that 
still the case? What steps are being taken toward implementation? What 
is standing in the way of implementation?
    General Votel.The program referenced is an internal GIRoA program 
that is not part of U.S. Central Command's Train, Advise, and Assist 
(TAA) efforts and it is not funded by Afghanistan Security Forces Fund 
(ASFF). The program is being worked by GIRoA MoD and MoI Gender 
Integration Offices, MoD Gender Director, MoI Director of Human Rights, 
Women's Affairs and Children. To date, they have implemented and hosted 
seminars discussing topics on gender integration to include female 
participation, employment, and career progression in the Afghan 
National Defense Security Force (ANDSF). There are steps being taken by 
GIRoA MoD and MoI Gender Integration Offices to develop policies and 
processes to prevent and report sexual harassment and assault as part 
of the United Nations General Assembly resolution 48/134. The Afghan 
Independent Human Rights Commission received approximately $5.5M from 
donors in 2017. The United Kingdom alone provided $124K specifically 
for the Ombudsman program.

                                  [all]
</pre></body></html>
